No._______
IN THE SUPREME COURT OF THE UNITED STATES
══════════════════════════
LEONIDAS IRAHETA, AND
EDUARDO HERNANDEZ,
Petitioners,
-vUNITED STATES OF AMERICA,
Respondent.
══════════════════════════
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
══════════════════════════
KATHERINE KIMBALL WINDSOR
Law Office of Katherine Kimball Windsor
65 N. Raymond Ave., Suite 320
Pasadena, CA 91103
Tel: (213) 663-9219
Counsel for Eduardo Hernandez

TIMOTHY ALLEN SCOTT
Singleton Schreiber McKenzie
& Scott, LLP
1350 Columbia St., Suite 600
San Diego, CA 92101
(619) 794-0451
Counsel for Leonidas Iraheta

QUESTION PRESENTED FOR REVIEW
Whether the Fifth and Sixth Amendments prohibit severe increases to the
sentences of criminal defendants using judge-found facts rejected by the jury.

--prefix--

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW ...................................................... prefix
TABLE OF AUTHORITIES .................................................................................... ii
OPINION BELOW .................................................................................................... 2
JURISDICTION......................................................................................................... 2
RELEVANT PROVISION ........................................................................................ 2
STATEMENT OF THE CASE .................................................................................. 3
I. Introduction...................................................................................................... 3
II. District Court Case .......................................................................................... 4
III. The Appellate Case .......................................................................................... 7
REASON FOR GRANTING THE PETITION ......................................................... 9
A. The Court Has Not Decided This Issue ......................................................... 10
B. Numerous Authorities Have Confirmed The Jury’s Fundamental Role in
Finding Facts Essential to Punishment……………………………………..13
C. The Fifth and Sixth Amendments Prohibit Courts from Dramatically
Increasing Sentences Based on Judge-Found Facts In Opposition to The
Jury’s Verdict………………………………………………………………18
CONCLUSION ........................................................................................................ 22
APPENDIX A
APPENDIX B

i

TABLE OF AUTHORITIES
Cases
Apprendi v. New Jersey, 530 U.S. 466 (2000)……………………………..passim
Alleyne v. United States, 570 U.S. 99 (2013)…………………………….17,18,19
Bishop v. State, 486 S.E. 2d 887 (Ga. 1997)……………………………………18
Blakely v. Washington, 542 U.S. 296 (2004)……………………………….17, 19
Cunningham v. California, 549 U.S. 270 (2007)……………………………….17
Harris v. United States, 536 U.S. 545 (2002)…………………………………..17
Hurst v. Florida, 136 S. Ct. 616 (2016)……………………………………..17,18
Jones v. United States, 529 U.S. 848 (2000)……………………………………21
Jones v. United States, 574 U.S. 948 (2014)……………………………………11
People v. Beck, ––– N.W. 2d –––, 2019 WL 3422585 (Mich. July 29, 2019)….18
Ring v. Arizona, 536 U.S. 584 (2002)…………………………………………...17
Rita v. United States, 551 U.S. 338 (2007)……………………………………...17
Rodriguez de Quidia v. Shearson., 490 U.S. 477 (1989)………………………..13
S. Union Co. v. United States, 567 U.S. 343 (2012)…………………………17,22
State v. Cote, 530 A. 2d 775 (N.H. 1987)……………………………………….18
State v. Jones, 845 N.W. 2d 285 (Minn. 2008)………………………………….18
State v. Marley, 364 S.E. 2d 133 (N.C. 1988)…………………………………...18
United States v. Azhworth, 139 F. App’x. 525 (4th Cir. 2005) (per curiam)……12
ii

United States v. Bell, 808 F.3d 926 (D.C. Cir. 2015)……………………10, 11, 14
United States v. Booker, 543 U.S. 220 (2005)………………………………passim
United States v. Briggs, 820 F.3d 917 (8th Cir. 2016)…………………………..16
United States v. Cassius, 777 F.3d 1093 (10th Cir. 2015)………………………16
United States v. Coleman, 370 F. Supp. 2d 661 (S.D. Ohio 2005)……………...16
United States ex rel. Attorney General v. Delaware & Hudson Co., 213 U.S. 366
(1909)……………………………………………………………………………21
United States v. Dorcely, 454 F.3d 366 (D.C. Cir. 2006)……………………….12
United States v. Faust, 456 F.3d 1342 (11th Cir. 2006)………………………...16
United States v. Fitch, 659 F.3d 788 (9th Cir. 2011)………………………….9,10
United States v. Haymond, 139 S. Ct. 2369 (2019)……………………………..17
United States v. Hayward, 177 F. App’x 214, 215 (3d Cir. 2006)……………...12
United States v. Henry, 472 F.3d 910 (D.C. Cir. 2007)…………………………14
United States v. Jones, 194 F. App’x 196 (5th Cir. 2006)………………………12
United States v. Lasley, 832 F.3d 910 (8th Cir. 2016)………………………16, 18
United States v. Mercado, 474 F.3d 654 (9th Cir. 2007)…………………9, 12, 16
United States v. Perez, 962 F.3d 420 (9th Cir. 2020)………………………2, 8, 11
United States v. Pimental, 367 F. Supp. 2d 143 (D. Mass. 2005)……………….16
United States v. Price, 418 F.3d 771 (7th Cir. 2005)……………………………12
iii

United States v. Settles, 530 F.3d 920 (D.C. Cir. 2008)…………………………14
United States v. Raygosa- Esparza, 566 F.3d 852 (9th Cir. 2009)……………8, 11
United States v. Sabillon-Umama, 772 F.3d 1328 (10th Cir. 2014)…………11, 14
United States v. Treadwell, 593 F.3d 990 (9th Cir. 2010)…………………….8, 11
United States v. Vaughn, 430 F.3d 518 (2d Cir. 2005)…………………………..12
United States v. Watts, 519 U.S. 148 (1997)………………………………..passim
United States v. White, 551 F.3d 381 (6th Cir. 2008)……………………11, 12, 16

Statutes
18 U.S.C. § 1959(a)(5)……………………………………………………………5
18 U.S.C. § 1962(f)……………………………………………………………….5
28 U.S.C. § 1254(1) ……………………………………………………………...2
21 U.S.C. § 841…………………………………………………………………...5
21 U.S.C. §§ 846………………………………………………………………….5
California Penal Code §§ 31, 187, 189, 190……………………………………...5

iv

IN THE SUPREME COURT OF THE UNITED STATES
══════════════════════════
LEONIDAS IRAHETA, AND
EDUARDO HERNANDEZ,
Petitioners,
-vUNITED STATES OF AMERICA,
Respondent.
══════════════════════════
PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
══════════════════════════
Petitioners Leonidas Iraheta and Eduardo Hernandez respectfully pray that a
writ of certiorari issue to review the judgment of the United States Court of Appeals
for the Ninth Circuit.

1

OPINION BELOW
In a published opinion, the Ninth Circuit affirmed Petitioners’ convictions and
sentences, finding, inter alia, that Petitioners’ life sentences did not violate the Fifth
and Sixth Amendments. See United States v. Perez, 962 F.3d 420, 454 (9th Cir.
2020) (attached as appendix A). After Petitioners timely moved for rehearing en
banc, the Ninth Circuit denied their request on August 19, 2020. See Appendix B.
JURISDICTION
On June 11, 2020, the Ninth Circuit affirmed petitioner’s convictions and
sentences via published opinion. See Appendix A. Petitioners timely filed a petition
for rehearing en banc, which was denied by the Ninth Circuit on August 19, 2020.
See Appendix B. This Court has jurisdiction under 28 U.S.C. § 1254(1) and the
Court’s March 19, 2020 Order extending filing deadlines for petitions for writs of
certiorari to 150 days from the date of denial of a timely petition for rehearing.
RELEVANT PROVISIONS
The Due Process Clause of the Fifth Amendment states: “No person shall…
be subject for the same offence to be twice put in jeopardy of life or limb…nor be
deprived of life, liberty, or property, without due process of law…”
The Sixth Amendment states: “In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial…”
2

STATEMENT OF THE CASE
I.

Introduction.
Eduardo Hernandez and Leonidas Iraheta had no choice but to go to trial.

The government’s plea offer required an admission to a murder, a crime they
denied committing. At trial, the government’s murder case fell apart and the jury
hung 8-4 for acquittal. They were convicted only of drug charges: racketeering,
based on a drug conspiracy, as well as a stand-alone drug conspiracy count. The
jury made findings on drug quantity: 280 grams or more of cocaine base, and an
additional 5 grams to 50 grams of methamphetamine. This drug quantity finding
corresponded to a base offense level 30, and a sentencing range close to the tenyear mandatory minimum.
The district court, however, did not use the jury’s findings on drug quantity.
Instead, it found a much higher quantity pursuant to an estimation generated by the
controversial “multiplier method” of U.S.S.G. § 2D1.1. It also noted that, using a
preponderance of the evidence standard, it would have found Petitioners guilty of
the murder on which the jury hung, and in determining the sentence, considered the
murder “in the sort of overall [18 U.S.C. §] 3553(a) context.” Despite the mistrial
on the murder-related charges and the jury’s drug quantity finding resulting in a

3

range of approximately 120 to 180 months, the district court sentenced Petitioners
to life terms.
What occurred in this case – a dramatic increase in sentencing based on
judge-found facts, some of which had been rejected by the jury – is a troubling
practice that merits this Court’s intervention. The Constitution cannot condone
these life sentences, which trample the jury right secured by the Sixth Amendment
and contravenes elemental due process principles under the Fifth Amendment. This
Court should grant certiorari to address this question of exceptional importance and
hold that the Constitution prohibits severe increases to sentences using judge-found
facts rejected by the jury.
II.

The District Court Case.
The racketeering charges that were the focus of this case alleged that

Petitioners were members or associates of the Columbia Lil Cycos (“CLCS”)
clique of the 18th Street Gang in Los Angeles, California. The indictment alleged
that CLCS operated under the auspices of the Mexican Mafia, to whom the gang
paid “taxes” – that is, a portion of the money brought in through drug sales and
extortion of local businesses and street vendors. In particular, Petitioner Hernandez
was alleged to be a long-standing and respected gang member who controlled a

4

drug distribution hub, while Petitioner Iraheta was alleged to work with Mr.
Hernandez as a rent collector.
Petitioners proceeded to trial on charges of racketeering conspiracy in
violation of 18 U.S.C. § 1962(f); conspiracy to possess with intent to distribute and
distribute controlled substances in violation of 21 U.S.C. §§ 846, 841 (a)(1),
(b)(1)(A)(iii), (b)(1)(B)(iii), (b)(1)(C); and the VICAR Murder of Jose Barajas in
violation of 18 U.S.C. § 1959(a)(5) and California Penal Code §§ 31, 187, 189. On
the RICO conspiracy, the jury was requested to make special findings on drug
conspiracy in violation of 21 U.S.C. §§ 841(a)(1) and (b)(1)(A)(iii) and the murder
of Jose Barajas in violation of California Penal Code §§ 31, 187, 189, 190.
The government’s murder case fell apart at trial. The cooperating witness’
testimony contained inconsistencies, and none of the eyewitnesses to the crime
could identify Petitioners as participants. The most damaging testimony however
came from Los Angeles County Sheriff’s Deputy Jim Ching, who had been on
surveillance duty in the area on another case the night of the murder. Deputy
Ching’s testimony was contrary to the government’s theory of the case and cast
doubt on its accusation that Petitioners were among the perpetrators.
After a thirty-one day trial and five days of deliberation, the jury found itself
hopelessly deadlocked on all of the allegations related to the Barajas murder, but in
5

agreement as to the drug charges. Accordingly, the jury returned guilty verdicts on
Count One, the RICO conspiracy, with a special finding that it was reasonably
foreseeable the RICO conspiracy involved the distribution of 280 grams or more of
cocaine base, as well as on Count Two, the drug conspiracy. The government
chose not to re-try Petitioners for the murder, and the charges were dismissed.
Petitioners were both sentenced on the same day. Because many of the
issues were the same for both defendants – such as drug quantity and the
significance of the Barajas murder – the district court made identical findings on
these matters. The court based its guideline calculations on drug conspiracy, which
had been established through the jury verdicts both directly and as a underlying
racketeering activity. The district court, however, did not use the jury’s findings on
drug quantity. Instead, it used a controversial metric – taking the testimony of a
government cooperator as to how much weekly rent was delivered to the Mexican
Mafia, along with law enforcement expert testimony as to the price of crack
cocaine, the court extrapolated the number of kilograms sold from 2000 to 2003,
finding that the amount exceeded the threshold of 25.2 kilograms, resulting in a
base offense level of 38.
In addition, the district court calculated a +2 for possession/use of firearms
in furtherance of the jointly undertaken drug distribution scheme, +2 for threats of
6

violence/actual violence in furtherance of the drug distribution scheme, and for
Petitioner Hernandez, additional adjustments of +3 for role, and +2 for obstruction
of justice. The resulting guideline range was 360 months to life. The court decided
to use the other conduct that the government urged be included in the guideline
calculations – money laundering, and acts of murder and violence – in its
consideration of 3553(a) factors.
The defense emphasized that Petitioners had denied committing the
charged murder, the jury had not reached a verdict on it, and that it should not be
considered. The district court responded that, using a preponderance of the
evidence standard, it would have found Petitioners guilty of the murder on which
the jury hung, and that it would consider the murder “in the sort of overall [18
U.S.C. §] 3553(a) context.” Specifically, the court credited the testimony of the
cooperating witness, which at least 8 members of the jury had not found
convincing. Despite the mistrial on the murder-related charges and the jury’s drug
quantity finding resulting in a range of approximately 10 to 15 years, the district
court sentenced Petitioners to life terms.
III. The Appellate Case.
Relevant to this petition, on appeal Petitioners raised a number of challenges
to their sentences, including the unreliable drug quantity calculations, upward
7

adjustments based on uncorroborated hearsay, and the district court’s failure to
articulate the factors on which it was relying in its 18 U.S.C. § 3553(a) analysis.
They also challenged the district court’s reliance on jury-rejected conduct to
impose life sentences.
The Ninth Circuit affirmed their sentences, noting that “[t]his Court has
repeatedly stated that the Fifth and Sixth Amendments do not limit a judge’s
discretion to find facts at sentencing, as long as the resulting sentence does not
exceed the statutory maximum based on the facts found by the jury.” See United
States v. Perez, 962 F.3d 420, 454 (9th Cir. 2020) (see Appendix), citing United
States v. Treadwell, 593 F.3d 990, 1017 (9th Cir. 2010); United States v. RaygosaEsparza, 566 F.3d 852, 855 (9th Cir. 2009). The panel did not even discuss the
concerns with using conduct rejected by the jury, finding that Apprendi v. New
Jersey, 530 U.S. 466 (2000) does not prohibit the use of judge-found facts to
increase a sentence, as long as the sentence is within the statutory maximum. Id.,
citing United States v. Booker, 543 U.S. 220, 233 (2005); United States v. Fitch,
659 F.3d 788, 795-96 (9th Cir. 2011). In the present case, had the district court
used the jury’s findings on drug quantity, the resulting sentence would have been
approximately 151-months (this, in fact, was the probation officer’s recommended
sentence for Petitioner Hernandez). Nonetheless, the panel found that Petitioners
8

ignored the fact that the jury’s drug quantity findings permitted a maximum
penalty of life, and rejected their constitutional arguments. Id.
Petitioners timely moved for rehearing en banc. The Ninth Circuit denied
their request on August 19, 2020. See Appendix B.
This petition follows.
REASON FOR GRANTING THE PETITION
THIS COURT SHOULD GRANT THE PETITION TO CONFIRM THAT
THE FIFTH AND SIXTH AMENDMENTS PROHIBIT JUDGES FROM
BASING SENTENCES ON FACTS AND CHARGES REJECTED BY THE
JURY.
The practice of allowing judge-found facts to dramatically increase a
sentence – sometimes using acquitted conduct, or, as in the present case, conduct
on which the jury did not come to verdict – has long unsettled federal jurists.
Seven current and former Supreme Court Justices have now questioned the
constitutionality of the practice of using such conduct to increase sentences. See
discussion at A., infra. Lower court judges, including at least one in the Ninth
Circuit, have condemned its use. See, e.g., United States v. Mercado, 474 F.3d 654,
658-65 (9th Cir. 2007) (Fletcher, J., dissenting). This Court should grant certiorari
to address this question of exceptional importance: whether a judge can
dramatically increase a sentence from 13 years to life based on facts that were
rejected by a jury.
9

A. This Court Has Not Decided This Issue.
This Court has never squarely considered whether the Due Process Clause of
the Fifth Amendment or the Sixth Amendment’s jury-trial guarantee forbid the use
of acquitted or jury-rejected conduct at sentencing. In United States v. Watts, 519
U.S. 148 (1997) (per curiam), the Court considered only whether the practice ran
afoul of the Double Jeopardy Clause. In the two decades since, numerous jurists
have questioned whether use of such conduct at sentencing is constitutionally
permitted and have urged the Court to consider the issue. See, e.g., United States v.
Bell, 808 F.3d 926, 932 (D.C. Cir. 2015) (Millet, J., concurring in denial of
rehearing en banc).
In Watts, a divided Court held that taking acquitted conduct into account at
sentencing did not offend the Double Jeopardy Clause of the Fifth Amendment.
519 U.S. at 154. The Court later noted that Watts “presented a very narrow
question” regarding the Double Jeopardy Clause. United States v. Booker, 543 U.S.
220, 240 n.4 (2005). Nonetheless, numerous appellate courts, including the Ninth
Circuit, have assumed that Watts forecloses challenges to the use of acquitted
conduct pursuant to the Fifth and Sixth Amendments, holding that Apprendi and its
progeny permit a judge to use any facts in determining a sentence up to the
statutory maximum. See, e.g. Fitch, 659 F.3d at 794-95 (upholding dramatic
10

increase in fraud sentence based on judicial finding of murder, noting it as “a stark
example of the diminishment of the role of the jury that can result when [judicial
fact-finding] powers reach their outer limits”). It was this line of cases on which
the Ninth Circuit’s decision rested in this case. See Perez, 962 F.3d at 454, citing
Treadwell, 593 F.3d at 1017; Raygosa-Esparza, 566 F.3d at 855; see also United
States v. White, 551 F.3d 381, 392 n.2 (6th Cir. 2008) (en banc) (Merritt, J.
dissenting, joined by five others).
Watts was controversial even at the time it was decided. Justice Kennedy
noted in dissent that it “raise[d] a question of recurrent importance” and Justice
Stevens called the Court’s holding “repugnant” to its constitutional jurisprudence.
Id. (Stevens, J., dissenting). In the years since, other Justices have called for this
Court to address this and related issues. See, e.g. Jones v. United States, 574 U.S.
948) (2014) (Scalia, J.; Thomas, J.; Ginsburg, J., dissenting from denial of
certiorari); see also United States v. Sabillon-Umama, 772 F.3d 1328 (10th Cir.
2014) (then-Judge Gorsuch, dissenting); see also United States v. Bell, 808 F.3d
926, 927 (D.C. Cir. 2015) (then-Judge Kavanaugh, concurring in denial of
rehearing en banc).
The decision also preceded the sea change ushered in by the Court's
decisions in Apprendi and Booker, which, together, addressed the application of a
11

defendant’s Sixth Amendment rights under the Sentencing Guidelines. In
Apprendi, the Court held that facts used to increase a prison sentence beyond the
statutory maximum for the crime of conviction must be found by a jury on the
basis of proof beyond a reasonable doubt. Apprendi v. New Jersey, 530 U.S. 466,
469, 490 (2000). And, in Booker, the Court held that any application of the
Sentencing Guidelines that violates the Sixth Amendment cannot stand. Booker,
543 U.S. at 243-45.
Yet the courts of appeals for at least nine circuits have relied on Watts and
other precedent to affirm that 18 U.S.C. § 3661 wholly permits the use of judgefound facts rejected or not found by the jury at sentencing. 1 These Courts have
relied on Watts despite this Court’s more recent Sixth Amendment jurisprudence.
Watts, however, was not a Sixth Amendment case. The Court issued its per curiam
decision on narrow Double Jeopardy grounds, as this Court observed in Booker,
543 U.S. at 240 & n.4.

1

See e.g., White, 551 F.3d at 383-84; Mercado, 474 F.3d at 657; United States

v. Dorcely, 454 F.3d 366, 371-72 (D.C. Cir. 2006); United States v. Jones, 194 F.
App’x 196, 197-98 (5th Cir. 2006); United States v. Hayward, 177 F. App’x 214,
215 (3d Cir. 2006); United States v. Azhworth, 139 F. App’x. 525, 527 (4th Cir.
2005) (per curiam); United States v. Price, 418 F.3d 771, 787-88 (7th Cir. 2005);
United States v. Vaughn, 430 F.3d 518, 526 (2d Cir. 2005).
12

The continued vitality of Watts’ broad interpretation may reflect this Court’s
instruction that “[i]f a precedent of this Court has direct application in a case, yet
appears to rest on reasons rejected in some other line of decisions, the Court of
Appeals should follow the case which directly controls, leaving to this Court the
prerogative of overruling its own decisions.” Rodriguez de Quidia v.
Shearson/American Express, Inc., 490 U.S. 477, 484 (1989). Only this Court can
lift the implicit seal of approval that Watts extended to the unmitigated use of
acquitted or jury-rejected conduct to enhance criminal sentences.
Justice Scalia recognized as much. In a 2014 dissent from a denial of
certiorari in which Justices Thomas and Ginsburg joined, Justice Scalia observed,
“the Courts of Appeals have uniformly taken our continuing silence to suggest that
the Constitution does permit otherwise unreasonable sentences supported by
judicial factfinding, so long as they are within the statutory range.” Jones, 135 S.
Ct. at 9 (Scalia, J., dissenting from denial of certiorari, joined by Thomas and
Ginsburg, JJ.).
B. Numerous Authorities Have Confirmed The Jury’s Fundamental
Role in Finding Facts Essential to Punishment.
The suggestion that this Court should grant certiorari in a case such as this
one to properly limit Watts is not new. A number of jurists (including several
current and former Justices) have called attention to the need for guidance from the
13

Court. And many in the bar and academia have argued that imposing enhanced
sentences based upon facts not found by a jury deprives defendants of their Sixth
Amendment rights.
Then-Judge Gorsuch explained in a 2014 opinion that “[i]t is far from
certain whether the Constitution allows” a judge to “increase a defendant’s
sentence (within the statutorily authorized range) based on facts the judge finds
without the aid of a jury or the defendant’s consent.” Sabillon-Umana, 772 F.3d at
1331. But the defendant-appellant in that case did not challenge the district court’s
constitutional authority to use judicially found facts at sentencing. Id.
Similarly, while on the D.C. Circuit, then-Judge Kavanaugh wrote several
times of his concern about the use of acquitted, uncharged, and jury-rejected
conduct at sentencing. See Bell, 808 F.3d at 928 (Kavanaugh, J., concurring in the
denial of rehearing en banc) (“[E]ven in the absence of a change of course by the
Supreme Court, or action by Congress or the Sentencing Commission, federal
district judges have power in individual cases to disclaim reliance on acquitted or
uncharged conduct.”) Bell, 808 F.3d at 928.; see also United States v. Settles, 530
F.3d 920, 923-24 (D.C. Cir. 2008); United States v. Henry, 472 F.3d 910, 918-22
(D.C. Cir. 2007) (Kavanaugh, J., concurring).

14

Dissenting opinions in Watts also raised concerns about the possible legacy
that the decision could leave. Justice Stevens declared that the Court’s holding
compelled a “perverse result.” Watts, 519 U.S. at 164 (Stevens, J., dissenting). And
he lamented that the Court did so via a per curiam order, “without hearing oral
argument or allowing the parties to fully brief the issues.” Id. In a separate dissent,
Justice Kennedy observed that the Court’s “per curiam opinion shows hesitation in
confronting the distinction between uncharged conduct and conduct related to a
charge for which the defendant was acquitted.” Watts, 519 U.S. at 170 (Kennedy,
J., dissenting). And he admonished that the issue “ought to be confronted by a
reasoned course of argument, not by shrugging it off.” Id.
And, in 2014, Justice Scalia authored a compelling dissent from this Court’s
denial of certiorari in Jones, observing that “any fact necessary to prevent a
sentence from being substantively unreasonable - thereby exposing the defendant
to the longer sentence - is an element that must be either admitted by the defendant
or found by the jury. It may not be found by a judge.” 135 S. Ct. at 8 (Scalia, J.,
dissenting from denial of certiorari, joined by Thomas and Ginsburg, JJ.).
Circuit judges have expressed similar concerns. Judge Bright of the Eighth
Circuit has called for the Court to address the import of the Sixth Amendment in
sentencing based on conduct not found by a jury. “We must end the pernicious
15

practice of imprisoning a defendant for crimes that a jury found he did not commit.
It is now incumbent on the Supreme Court to correct this injustice.” Papakee, 573
F.3d at 577-78 (Bright, J., concurring); see also United States v. Canania, 532 F.3d
764, 776 (8th Cir. 2008) (Bright, J., concurring). In 2016, Judge Bright further
called attention to the “[m]any federal judges [who] have expressed the view that
the use of [such] conduct to enhance a defendant’s sentence should be deemed to
violate the Sixth Amendment and the Due Process Clause of the Fifth
Amendment.” United States v. Lasley, 832 F.3d 910, 921 (8th Cir. 2016) (Bright,
J., dissenting) (collecting cases), cert. denied, 137 S. Ct. 823, 196 L. Ed. 2d 608
(2007). See also United States v. Faust, 456 F.3d 1342, 1349 (11th Cir. 2006)
(Barkett, J., concurring specially); United States v. Briggs, 820 F.3d 917, 922 (8th
Cir. 2016) (recognizing that there is “room for debate” on the issue; United States
v. Cassius, 777 F.3d 1093, 1099 n.4 (10th Cir. 2015) (calling argument about
judge-found sentencing facts “precluded by binding precedent” but citing Jones).
Several other federal judges have reached the same conclusion. See White,
551 F.3d at 392 (Merritt, J., dissenting, joined by five others); United States v.
Mercado, 474 F.3d 654, 663 (9th Cir. 2007) (Fletcher, J., dissenting); United States
v. Coleman, 370 F. Supp. 2d 661, 671 (S.D. Ohio 2005) (Marbley, J.); United
States v. Pimental, 367 F. Supp. 2d 143, 152 (D. Mass. 2005) (Gertner, J.)
16

Watts’s inconsistency with related decisions and subsequent legal
developments strongly favor this Court’s attention. In the two decades since Watts,
the Court has issued over a dozen opinions addressing the Sixth Amendment’s
effects on criminal sentencing: see, e.g., Apprendi v. New Jersey, 530 U.S. 466
(2000) (jury must find all facts affecting statutory maximum); Harris v. United
States, 536 U.S. 545 (2002) (sentencing factors could be considered by judge);
Ring v. Arizona, 536 U.S. 584 (2002) (jury must find aggravating factors
permitting death penalty); Blakely v. Washington, 542 U.S. 296 (2004) (jury must
find all facts legally essential to sentence); United States v. Booker, 543 U.S. 220
(2005) (Sentencing Guidelines subject to Sixth Amendment); Rita v. United States,
551 U.S. 338 (2007) (presumption of reasonableness for Guidelines sentences
comports with Sixth Amendment); Cunningham v. California, 549 U.S. 270 (2007)
(jury must find facts exposing defendant to longer sentence); S. Union Co. v.
United States, 567 U.S. 343 (2012) (jury must find facts permitting imposition of
criminal fine); Alleyne v. United States, 570 U.S. 99 (2013) (jury must find facts
increasing mandatory minimum, overruling Harris); Hurst v. Florida, 136 S. Ct.
616 (2016) (jury must make critical findings needed for imposition of death
sentence); United States v. Haymond, 139 S. Ct. 2369 (2019) (judge cannot make
findings to increase sentence during period of supervised release).
17

Many of the above decisions also have cited the Due Process Clause in
emphasizing that a court’s power to sentence a defendant flows fundamentally
from an authorization by the jury. See, e.g., Hurst, 136 S. Ct. at 621; Alleyne, 570
U.S. at 104. All these cases, taken collectively, have “emphasized the central role
of the jury in the criminal justice system.” Lasley, 832 F.3d at 921 (Bright, J.,
dissenting). They provide a compelling reason to examine whether the Constitution
permits consideration of uncharged, rejected, or acquitted conduct at sentencing—
and, at a minimum, to give the question the full hearing in this Court that it has not
yet received. 2
C. The Fifth and Sixth Amendments Prohibit Courts from Dramatically
Increasing Sentences Based on Judge-Found Facts In Opposition to
The Jury’s Verdict.
Under this Court’s post-Apprendi, Sixth Amendment jurisprudence, there
can be no doubt that an enhanced sentence based on conduct rejected or not found
by a jury violates the Sixth Amendment. In Apprendi, the Court held that any

2 Some state courts have already recognized the problems with enhancing

sentences based on uncharged, acquitted, and jury-rejected conduct, including a
few Courts that have explicitly relied on this Court’s reasoning in Apprendi and its
progeny. See People v. Beck, ––– N.W. 2d –––, 2019 WL 3422585 (Mich. July 29,
2019); State v. Jones, 845 N.W. 2d 285 (Minn. 2008); Bishop v. State, 486 S.E. 2d
887 (Ga. 1997); State v. Marley, 364 S.E. 2d 133 (N.C. 1988); State v. Cote, 530
A. 2d 775 (N.H. 1987).
18

“facts that increase the prescribed range of penalties to which a criminal defendant
is exposed” are essential elements of a crime and that the Sixth Amendment
guarantees defendants the right to have a jury find those facts beyond a reasonable
doubt. Apprendi, 530 U.S. at 490. Apprendi made clear that a “fact that increases
the penalty for a crime beyond the prescribed statutory maximum must be
submitted to a jury.” Id. The Court further expounded that principle in Blakely,
supra, and Alleyne, supra.
In Blakely, the petitioner pleaded guilty to a crime with a 53-month statutory
maximum under state law, but the sentencing judge imposed a 90-month sentence
after finding facts “neither admitted by petitioner nor found by a jury” to shift that
maximum. Id. at 303. The Court applied Apprendi’s rationale to reject the
sentence, holding that under the Sixth Amendment, “every defendant has the right
to insist that the prosecutor prove to a jury all facts legally essential to the
punishment.” Blakely, 542 U.S. at 313. The Court stated that its ruling rested upon
“the need to give intelligible content to the right of jury trial.” Id. at 305-06.
In Alleyne, the Court held that a fact that increases a mandatory-minimum
sentence is an essential element that jurors must find beyond a reasonable doubt.
570 U.S. 99, 114-15 (2013). The Court explained: “[w]hen a finding of fact alters
the legally prescribed punishment so as to aggravate it, the fact necessarily forms a
19

constituent part of a new offense and must be submitted to the jury. It is no answer
to say that the defendant could have received the same sentence with or without
that fact.” Id. (emphasis added). The Court further illustrated: “[i]t is obvious, for
example, that a defendant could not be convicted and sentenced for assault, if the
jury only finds the facts for larceny, even if the punishments prescribed for each
crime are identical…. Similarly, because the fact of brandishing aggravates the
legally prescribed range of allowable sentences, it constitutes an element of a
separate, aggravated offense that must be found by the jury, regardless of what
sentence the defendant might have received if a different range had been
applicable.” Id. at 115.
The Court’s illustrations bear directly upon the core issues of the petition.
The facts that the judge relied upon in sentencing Petitioners—facts that the jury
did not find proven beyond a reasonable doubt—were used to inflate Petitioners’
prescribed sentencing range. But as this Court has made clear, the fact that
Petitioners “could have received the same sentence with or without that fact” is no
remedy to the constitutional violation. Id. The Court’s post-Apprendi Sixth
Amendment jurisprudence cannot be reconciled with the practice of judges relying
upon facts rejected by a jury in sentencing.

20

Finally, the broad language of 18 U.S.C. § 3661 and the Sentencing
Guidelines do not lie beyond the Sixth Amendment’s purview. In Watts, the
majority began its analysis with the statutory language of 18 U.S.C. § 3661, which
states that “[n]o limitation shall be placed on the information” a sentencing court
can receive or consider to determine an appropriate sentence.” Watts, 519 U.S. at
151 (quoting 18 U.S.C. § 3661). But the plain language of the statute must be
applied consistent with constitutional protections. See United States ex rel.
Attorney General v. Delaware & Hudson Co., 213 U.S. 366, 408 (1909) (“[W]here
a statute is susceptible of two constructions, by one of which grave and doubtful
constitutional questions arise and by the other of which such questions are avoided,
our duty is to adopt the latter.”); Jones v. United States, 529 U.S. 848, 857 (2000)
(same). To hold otherwise would allow the statute to stand above the Constitution.
A judge’s discretion and latitude to consider a broad range of factors as
prescribed by § 3661 can be retained, but it cannot transgress a defendant’s
constitutional rights.

21

CONCLUSION
The Sixth Amendment preserves the “jury’s historic role as a bulwark
between the State and the accused at the trial for an alleged offense.” S. Union Co.,
567 U.S. at 343 (internal quotation marks omitted). When courts sentence defendants
on the basis of judge-found facts, they diminish the right to trial by jury. The
prosecutor gets a “second bite at the apple” that “trivializes” the jury’s role.
Honoring facts found by the jury (in this case, the drug quantity), and prohibiting
consideration of conduct rejected by the jury (here, the murder), would restore this
important reservation of power to the jury. For all these reasons, the Court should
grant the petition for a writ of certiorari.
Respectfully submitted,
Dated:

January 15, 2021

_______________________
TIMOTHY A. SCOTT
SINGLETON SCHREIBER McKENZIE &
SCOTT, LLP
1350 Columbia Street, Suite 600
San Diego, CA 92101
Counsel for Leonidas Iraheta
KATHERINE KIMBALL WINDSOR
Law Offices of Katherine Kimball Windsor
65 N. Raymond Ave., Suite 320
Pasadena, CA 91103
Tel: (213) 663-9219
Counsel for Eduardo Hernandez

22

APPENDIX
A

Neutral
As of: January 15, 2021 8:14 PM Z

United States v. Perez
United States Court of Appeals for the Ninth Circuit
February 10, 2020, Argued and Submitted, Pasadena, California; June 11, 2020, Filed
No. 13-50014, No. 15-50241, Nos. 15-50243, 18-50187, Nos. 15-50243 18-50187, No. 18-50181
Reporter
962 F.3d 420 *; 2020 U.S. App. LEXIS 18526 **; 112 Fed. R. Evid. Serv. (Callaghan) 1223; 2020 WL 3089261

UNITED STATES OF AMERICA, Plaintiff-Appellee, v.
JAVIER PEREZ, AKA Ranger, Defendant-Appellant.
UNITED STATES OF AMERICA, Plaintiff-Appellee, v.
VLADIMIR ALEXANDER IRAHETA, AKA Jokes, AKA
Slick, AKA the Twin, Defendant-Appellant. UNITED
STATES OF AMERICA, Plaintiff-Appellee, v.
LEONIDAS IRAHETA, AKA Druggy, AKA Drugs, AKA
Shysty, AKA the Twin, Defendant-Appellant. UNITED
STATES OF AMERICA, Plaintiff-Appellee, v.
EDUARDO HERNANDEZ, Defendant-Appellant.
UNITED STATES OF AMERICA, Plaintiff-Appellee, v.
EDUARDO HERNANDEZ, AKA Ed Garcia, AKA
Eduardo Garcia, AKA Eduardo Hernadez, AKA Eduardo
Perez Hernandez, AKA Edward Hernandez, AKA Lil
Oso, AKA Jorge Mateo Martinez, AKA Oso, AKA
Hernandez Oso, AKA Edward Perez, AKA Terco,
Defendant-Appellant.

Prior History: [**1] Appeal from the United States
District Court for the Central District of California. D.C.
No. 2:07-cr-01172-DDP-32. Dean D. Pregerson, District
Judge, Presiding.
Appeal from the United States District Court for the
Central District of California. D.C. No. 2:07-cr-01172DDP-25. Dean D. Pregerson, District Judge, Presiding.
Appeal from the United States District Court for the
Central District of California. D.C. No. 2:07-cr-01172DDP-26. Dean D. Pregerson, District Judge, Presiding.
Appeal from the United States District Court for the
Central District of California. D.C. No. 2:07-cr-01172DDP-23. Dean D. Pregerson, District Judge, Presiding.
Appeal from the United States District Court for the
Central District of California. D.C. No. 2:07-cr-01172DDP-23. Dean D. Pregerson, District Judge, Presiding.

United States v. Pantoja, 2010 U.S. Dist. LEXIS 44296
(C.D. Cal., Apr. 23, 2010)

Disposition: AFFIRMED in part, REVERSED and
VACATED in part, and REMANDED with instructions.

Core Terms
sentencing, district court, conspiracy, convictions, gang,
murder, enhancement, calculation, harmless, narcotics,
extraterritorial, Street, territory, firearm, violence, kill,
Counts, kidnap, drugs, conspiracy to murder,
obstruction, challenges, enterprise, leaders, joined,
beyond a reasonable doubt, firearm enhancement, base
offense, gang member, plain error

Case Summary
Overview
HOLDINGS: [1]-In a gang-related prosecution, the
district court improperly instructed the jury on the
extraterritorial application of the Violent Crimes in Aid of
Racketeering (VICAR) statute where the predicate
crimes with which defendant was charged—California's
attempted murder statute and its definitional
components—did not proscribe extraterritorial acts, and
the instruction improperly relieved the United States of
the burden of proving the required connection between
American territorial jurisdiction and the crimes in the
challenged counts; [2]-Testimony of law enforcement
officers as to gang jargon and knowledge of drug
trafficking was properly admitted where their

Nicolas Jimenez

Page 2 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **1
investigation into the gang was a proper basis for
offering lay opinions under Fed. R. Evid. 701, the
testimony required no technical or specialized
knowledge, and it was not paraphrasing unambiguous,
clear statements.

Outcome
Judgment affirmed in part, reversed and vacated in part,
and remanded with instructions.

LexisNexis® Headnotes

Review > Harmless & Invited Error > Evidence
HN2[

] Plain Error, Definition of Plain Error

An appellate court reviews a district court's evidentiary
rulings for abuse of discretion and upholds them unless
they are illogical, implausible, or without support in
inferences that may be drawn from the facts in the
record. And the plain-error standard governs a witness's
opinion not objected to at trial: the court declines to
reverse based on an erroneous evidentiary ruling unless
the district court's refusal to intervene sua sponte is (1)
error; (2) that is plain; (3) that affects substantial rights;
and (4) seriously affects the fairness, integrity, or public
reputation of judicial proceedings. Any error in admitting
a lay witness's opinion is harmless so long as in light of
the evidence as a whole, there was a fair assurance that
the jury was not substantially swayed by the error.

Evidence > ... > Testimony > Lay
Witnesses > Opinion Testimony
Criminal Law & Procedure > ... > Standards of
Review > Abuse of Discretion > Discovery
Criminal Law & Procedure > Preliminary
Proceedings > Discovery & Inspection > In Camera
Inspections
HN1[

] Abuse of Discretion, Discovery

An appellate court reviews for abuse of discretion a
district court's denial of a motion to unseal, reversing
only if the denial was illogical, implausible, or without
support in inferences that may be drawn from the facts
in the record.

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Definition of Plain Error
Evidence > Types of Evidence > Testimony > Lay
Witnesses
Criminal Law & Procedure > ... > Standards of
Review > Abuse of Discretion > Evidence

Evidence > ... > Testimony > Lay
Witnesses > Personal Knowledge
HN3[

] Lay Witnesses, Opinion Testimony

Fed. R. Evid. 701 allows a lay witness to offer opinions
that are (a) rationally based on the witness's perception,
(b) helpful to the jury, and (c) not based on scientific,
technical, or other specialized knowledge within the
scope of expert testimony. Fed. R. Evid. 701. This rule
applies with equal force to a law-enforcement witness: a
police officer may have knowledge derived specifically
from an investigation, and he may offer opinions based
on that knowledge, but his employment does not endow
him with any freestanding license to offer opinions. For
instance, he may offer interpretations of ambiguous
conversations based upon his direct knowledge of the
investigation, or translate the drug jargon used by the
targets of his investigation, But he may not testify based
on speculation, rely on hearsay or interpret
unambiguous, clear statements.

Evidence > ... > Testimony > Lay
Witnesses > Opinion Testimony

Criminal Law & Procedure > ... > Standards of
Review > Plain Error > Evidence

HN4[

Criminal Law & Procedure > ... > Standards of

Whether evidence is more properly offered by an expert

Nicolas Jimenez

] Lay Witnesses, Opinion Testimony

Page 3 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **1
or a lay witness depends on the basis of the opinion, not
its subject matter.

International Law > Authority to Regulate
Governments > Legislation > Interpretation
HN8[

Criminal Law &
Procedure > Trials > Witnesses > Credibility
HN5[

] Witnesses, Credibility

There is no rule in the Ninth Circuit Court of Appeals
that a criminal conviction may not, as a matter of law,
rest on the testimony of government cooperators. In our
system, it is up to the jury to determine the credibility of
a witness' testimony.

Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > Conclusions of Law
Governments > Legislation > Effect & Operation
Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > Jury Instructions
HN6[

] Legislation, Effect & Operation

Courts apply a two-step process for determining
whether a statute has extraterritorial effect. First, a court
asks whether the presumption against extraterritoriality
has been rebutted. The presumption can be rebutted
only if the text provides a clear indication of an
extraterritorial application. Second, if the statute does
not apply extraterritorially, a court asks whether the
case involves a domestic application of the statute; that
is, whether the conduct relevant to the statute's focus
occurred in the United States.

Criminal Law &
Procedure > ... > Racketeering > Racketeer
Influenced & Corrupt Organizations Act > Elements
Governments > Legislation > Effect & Operation
International Law > Authority to Regulate

] De Novo Review, Conclusions of Law

An appellate court reviews de novo both a district court's
determination of a statute's extraterritorial reach, and
jury instructions challenged as misstatements of law.

HN9[ ]
Racketeer
Influenced
Organizations Act, Elements

&

Corrupt

RICO, 18 U.S.C.S. § 1962, may have extraterritorial
effect, but only to the extent that the predicates alleged
in a particular case themselves apply extraterritorially.

Governments > Legislation > Effect & Operation
International Law > Authority to Regulate
HN7[

Criminal Law & Procedure > Criminal
Offenses > Racketeering

] Legislation, Effect & Operation

Federal statutes are presumed to apply only within
American
territorial
jurisdiction.
The
so-called
presumption against extraterritoriality has both
descriptive and normative justifications: it is based in
part on the commonsense notion that Congress
generally legislates with domestic concerns in mind, and
it serves to prevent unintended clashes between our
laws and those of other nations which could result in
international discord. Unless a statute gives a clear,
affirmative indication that it applies extraterritorially, it
covers only domestic conduct.

International Law > Authority to Regulate
HN10[

] Criminal Offenses, Racketeering

VICAR does not reach all crimes committed in other
countries. If the laws of the United States or the States
cannot reach foreign conduct, neither may VICAR.

Criminal Law & Procedure > Jurisdiction &
Venue > Jurisdiction
International Law > Authority to Regulate

Governments > Legislation > Effect & Operation

HN11[

Nicolas Jimenez

] Jurisdiction & Venue, Jurisdiction

Page 4 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **1
California's jurisdictional statutes and case law explicitly
rule out punishing an act committed entirely in another
country: California may exercise its territorial jurisdiction
over an offense if the defendant, (1) with the requisite
intent, (2) does a preparatory act in California that is
more than a de minimis act toward the eventual
completion of the offense. Cal. Penal Code § 778a(a).

Criminal Law & Procedure > ... > Standards of
Review > Harmless & Invited Error > Constitutional
Rights

Criminal Law & Procedure > ... > Standards of
Review > Harmless & Invited Error > Harmless Error
HN14[

Precedents establish a high bar for
harmlessness beyond a reasonable doubt.

Criminal Law & Procedure > Trials > Motions for
Acquittal

HN15[
Criminal Law & Procedure > ... > Jury
Instructions > Particular Instructions > Elements of
Offense
HN12[ ] Harmless & Invited Error, Constitutional
Rights
An improper jury instruction does not require reversal if
the error is harmless. A constitutional error is only
harmless if the court is satisfied beyond a reasonable
doubt that the instruction did not contribute to the guilty
verdict. Whether a jury-instruction error is constitutional
is sometimes not clear. Where that error lies in defining
the offense, courts have required harmlessness to be
proven beyond a reasonable doubt.

Criminal Law & Procedure > ... > Jury
Instructions > Particular Instructions > Elements of
Offense
Criminal Law & Procedure > ... > Standards of
Review > Harmless & Invited Error > Jury
Instructions
Particular

Instructions,

Elements

finding

Criminal Law & Procedure > ... > Standards of
Review > De Novo Review > Sufficiency of
Evidence

Criminal Law & Procedure > ... > Standards of
Review > Harmless & Invited Error > Jury
Instructions

HN13[ ]
Offense

] Harmless & Invited Error, Harmless Error

of

An appellate court reviews the denial of a defendant's
motion to acquit de novo. The evidence underlying a
conviction is sufficient if, viewing the evidence in the
light most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the
crime beyond a reasonable doubt.

Criminal Law & Procedure > ... > Delivery,
Distribution & Sale > Conspiracy > Elements
HN16[

] Conspiracy, Elements

To convict defendants of a narcotics conspiracy, the
government is required to show: (1) there existed an
agreement between two or more persons to possess
with intent to distribute or to distribute crack cocaine or
methamphetamine or both; and (2) defendants joined
the agreement knowing of its purpose and intending to
help accomplish that purpose.

Criminal Law & Procedure > Criminal
Offenses > Inchoate Crimes > Conspiracy
HN17[

Where evidence of a defendant's guilt is overwhelming,
even significant jury-instruction error can be harmless.
However, failing to instruct on an element of a crime is
not harmless if there is sufficient evidence that the jury
could have found in favor of the defendant if properly
instructed.

] Trials, Motions for Acquittal

] Inchoate Crimes, Conspiracy

Mere gang membership is not enough to show that a
person has joined a criminal conspiracy.

Criminal Law &
Procedure > Sentencing > Imposition of

Nicolas Jimenez

Page 5 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **1
Sentence > Factors

defendant was dealing in that quantity and multiplying
these two factors together.

Criminal Law &
Procedure > Sentencing > Appeals > Proportionality
& Reasonableness Review
Criminal Law &
Procedure > Sentencing > Appeals > Standards of
Review
Criminal Law &
Procedure > Sentencing > Sentencing Guidelines
HN18[

] Imposition of Sentence, Factors

On procedural challenges to sentences, an appellate
court reviews the district court's interpretation of the
U.S. Sentencing Guidelines de novo, the district court's
application of the Guidelines to the facts of the case for
abuse of discretion, and the district court's factual
findings for clear error, if the claim was preserved.
Where the claim was not preserved, the district court's
determination is reviewed for plain error. A sentence is
substantively reasonable if it is sufficient, but not greater
than necessary under the totality of the circumstances
and 18 U.S.C.S. § 3553(a) factors. The court does not
adopt a presumption of reasonableness purely because
a sentence is within Guidelines, but when the judge's
discretionary decision accords with the Sentencing
Commission's view of the appropriate application of §
3553(a) in the mine run of cases, it is probable that the
sentence is reasonable.

Criminal Law &
Procedure > Sentencing > Sentencing
Guidelines > Adjustments & Enhancements

Criminal Law & Procedure > ... > Delivery,
Distribution & Sale > Conspiracy > Penalties
Evidence > Burdens of Proof > Preponderance of
Evidence
HN20[

] Conspiracy, Penalties

Sentencing determinations relating to the extent of a
criminal conspiracy need not be established by clear
and convincing evidence. Further, factual disputes
regarding drug quantity should be resolved via the
preponderance of the evidence standard.

Criminal Law & Procedure > ... > Inchoate
Crimes > Conspiracy > Penalties
Criminal Law & Procedure > ... > Delivery,
Distribution & Sale > Conspiracy > Penalties
HN21[

] Conspiracy, Penalties

Conduct of a member of a conspiracy must be both in
furtherance of jointly undertaken activity and reasonably
foreseeable for it to be considered at sentencing. A drug
operation must be continuous during the period of time
selected.

Criminal Law &
Procedure > Sentencing > Sentencing
Guidelines > Adjustments & Enhancements

Criminal Law & Procedure > ... > Controlled
Substances > Delivery, Distribution &
Sale > Penalties

HN22[ ] Sentencing Guidelines, Adjustments &
Enhancements

HN19[ ] Sentencing Guidelines, Adjustments &
Enhancements
The multiplier method, to calculate the amount of drugs
a defendant was responsible for under U.S. Sentencing
Guidelines Manual § 2D1.1, is appropriate where the
amount of drugs seized does not reflect the scale of the
offense. Under the multiplier method, the district court
accounts for the defendant's behavior over time by
determining a daily or weekly quantity, selecting a time
period over which it is more likely than not that the

A sentencing enhancement for firearm possession and
an enhancement for the use or direction of violence or
credible threats of violence may be applied on the same
facts. U.S. Sentencing Guidelines Manual § 2D1.1, cmt.,
application n. 11(B).

Criminal Law &
Procedure > Sentencing > Sentencing
Guidelines > Adjustments & Enhancements

Nicolas Jimenez

Page 6 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **1
Criminal Law & Procedure > ... > Delivery,
Distribution & Sale > Conspiracy > Penalties

HN25[ ]
Adjustments
Obstruction of Justice

Criminal Law & Procedure > Criminal
Offenses > Weapons Offenses > Possession of
Weapons

An obstruction enhancement is proper if: (1) the
defendant willfully obstructed or impeded, or attempted
to obstruct or impede, the administration of justice with
respect to the investigation, prosecution, or sentencing
of the instant offense of conviction, and (2) the
obstructive conduct related to (A) the defendant's
offense of conviction and any relevant conduct; or (B) a
closely related offense, increase the offense level by 2
levels. U.S. Sentencing Guidelines Manual § 3C1.1.
Section 3C1.1, cmt., application n. 4(A) provides
examples of obstruction, which include threatening,
intimidating, or otherwise unlawfully influencing a codefendant, witness, or juror, directly or indirectly, or
attempting to do so. A defendant may be held
responsible for the actions of others if he willfully caused
or aided and abetted those acts. § 3C1.1, cmt.,
application n. 9. The Ninth Circuit Court of Appeals has
often affirmed sentencing enhancements under § 3C1.1
where the defendant intimidated, or shared information
about, an individual working as a police cooperator or
snitch. Where a defendant's statements can be
reasonably construed as a threat, even if they are not
made directly to the threatened person, the defendant
has obstructed justice.

Criminal Law & Procedure > ... > Controlled
Substances > Delivery, Distribution &
Sale > Penalties
HN23[ ] Sentencing Guidelines, Adjustments &
Enhancements
A two-level firearm enhancement is proper if a
defendant possesses a weapon in furtherance of the
drug trafficking offense. U.S. Sentencing Guidelines
Manual § 2D1.1(b)(1). In conspiracy cases, courts look
to all of the offense conduct, not just the crime of
conviction, when determining if a defendant possessed
a firearm in furtherance of a scheme. U.S. Sentencing
Guidelines Manual § 1B1.3(a)(2). Possession can
include constructive possession, which applies when
there is a sufficient connection between the defendant
and the contraband to support the inference that the
defendant exercised dominion and control over it. §
2D1.1, cmt., application n.11(A).

&

Enhancements,

Criminal Law &
Procedure > Sentencing > Sentencing
Guidelines > Adjustments & Enhancements

Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Evidence

Criminal Law & Procedure > ... > Controlled
Substances > Delivery, Distribution &
Sale > Penalties

Criminal Law & Procedure > ... > Inchoate
Crimes > Conspiracy > Penalties
HN26[

HN24[ ] Sentencing Guidelines, Adjustments &
Enhancements
While it may be based on the same underlying
circumstances as a firearm enhancement, under U.S.
Sentencing Guidelines Manual § 2D1.1(b)(2), a
separate two-level enhancement can be imposed if the
defendant used violence, made a credible threat to use
violence, or directed the use of violence.

Criminal Law & Procedure > ... > Sentencing
Guidelines > Adjustments &
Enhancements > Obstruction of Justice

] Imposition of Sentence, Evidence

In sentencing, the district court is entitled to rely on coconspirator testimony offered at trial. And while a district
court may consider relevant information without regard
to its admissibility under the rules of evidence applicable
at trial, U.S. Sentencing Guidelines Manual § 6A1.3(a),
challenged information is deemed false or unreliable if it
lacks some minimal indicium of reliability beyond mere
allegation.

Criminal Law & Procedure > ... > Sentencing
Guidelines > Adjustments &
Enhancements > Aggravating Role

Nicolas Jimenez

Page 7 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **1
HN27[ ]
Adjustments
Aggravating Role

&

Enhancements,

A three-level enhancement is available for a defendant
who acts as a manager or supervisor (but not an
organizer or leader) where the criminal activity involved
five or more participants or was otherwise extensive.
U.S. Sentencing Guidelines Manual § 3B1.1(b). A court
should consider all persons involved during the course
of the entire offense when deciding if an organization is
extensive. § 3B1.1(b), cmt., application n. 3. The
introductory commentary for § 3B1.1 also notes that the
determination of a defendant's role in the offense is to
be made on the basis of all conduct, including all
reasonably foreseeable acts and omissions of others in
furtherance of the jointly undertaken criminal activity.

HN29[

] Standards of Review, Abuse of Discretion

A sentencing judge does not abuse his discretion when
he listens to the defendant's arguments and then simply
finds the circumstances insufficient to warrant a
sentence lower than the Guidelines range. Where a
defendant did not object to the district court's 18
U.S.C.S. § 3553(a) findings below, the appellate court
reviews the determination under the even more
deferential plain-error standard.

Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Findings
Criminal Law & Procedure > Sentencing > Ranges

Criminal Law &
Procedure > Sentencing > Presentence Reports
HN28[

Criminal Law & Procedure > Trials > Defendant's
Rights > Right to Due Process
Criminal Law & Procedure > Trials > Defendant's
Rights > Right to Jury Trial

] Sentencing, Presentence Reports

Fed. R. Crim. P. 32 requires that the court, at
sentencing, must—for any disputed portion of the
presentence report or other controverted matter—rule
on the dispute or determine that a ruling is unnecessary
either because the matter will not affect sentencing, or
because the court will not consider the matter in
sentencing. But only factual objections to the
presentence report are considered disputed for
purposes of Rule 32. Sentencing adjustments ordinarily
do not require specific factfinding, unless a defendant
contests specific factual statements made in the PSR.

HN30[

] Imposition of Sentence, Findings

U.S. Const. amends. V and VI do not limit a judge's
discretion to find facts at sentencing, as long as the
resulting sentence does not exceed the statutory
maximum based on the facts found by the jury.

Summary:
Criminal Law &
Procedure > ... > Appeals > Standards of
Review > Abuse of Discretion
Criminal Law &
Procedure > ... > Appeals > Standards of
Review > Plain Error
Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Factors
Criminal Law &
Procedure > Sentencing > Imposition of
Sentence > Findings

SUMMARY*
Criminal Law
In appeals arising from the prosecution of four members
of the Columbia Lil Cycos clique of the 18th Street gang,
the panel affirmed the convictions of Eduardo
Hernandez, Leonidas Iraheta, and Vladimir Iraheta;
affirmed in part and reversed in part the convictions of
Javier Perez; vacated Perez's [**2] sentence; and
remanded for resentencing.

* This

summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

Nicolas Jimenez

Page 8 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **2
The panel held that a post-verdict filing made in camera
by a third party did not contain Brady material, and the
district court did not abuse its discretion in declining to
allow Leonidas's and Hernandez's attorneys to view it.
Leonidas and Hernandez claimed that the government
surreptitiously elicited expert testimony from lawenforcement officers in violation of Fed. R. Evid. 701.
Observing that the district court diligently patrolled the
line between lay and expert testimony, the panel
concluded that in the few instances in which admission
of the witnesses' testimony was error, appellants
suffered no prejudice.
Perez alleged that the district court improperly instructed
the jury on the extraterritorial application of the Violent
Crimes in Aid of Racketeering (VICAR) statute. The
panel explained that VICAR may reach a crime
committed abroad with sufficient nexus to the conduct of
an enterprise's affairs, but if the predicate crimes cannot
reach foreign conduct, neither may VICAR. Because the
predicate crimes with which Perez was charged—
California's attempted murder statute and its definitional
components—do not proscribe extraterritorial acts, the
panel held [**3] that the district court erred in instructing
the jury that it is not necessary for the government to
prove that any part of the charged crime took place
within the United States. The panel wrote that this error
has a constitutional due process dimension: it relieved
the United States of the burden of proving the required
connection between American territorial jurisdiction and
the crimes in the challenged counts for which Perez
stood trial in the Central District of California. The panel
therefore evaluated whether the instructional error was
harmless beyond a reasonable doubt. The panel
concluded that the instructional error was harmless as
to Count Sixteen (VICAR conspiracy to murder)
because (1) there was evidence of the conspiracy's
origin in California; (2) the jury's special finding as to the
date that the conspiracy began was strong evidence it
believed that the plan was hatched in California; and,
most importantly (3) as to that count, the jury was
correctly instructed that, in order to convict, it must find
that "an overt act was committed in this state by one or
more of the persons" involved. The panel held that the
instructional error was not harmless beyond a
reasonable [**4] doubt as to Count Eighteen (VICAR
attempted murder), where no contrary instruction cured
the initial error.
The
panel
rejected
sufficiency-of-the-evidence
challenges to Hernandez's and the Iraheta brothers'
narcotics-conspiracy convictions and Perez's conspiracy

convictions.
At sentencing, the panel held that the district court erred
in its application of a firearm enhancement to
Hernandez, but that this error was harmless. The panel
rejected Hernandez and Leonidas's objections to the
district court's drug-weight calculation, application of a
threat enhancement, explication of 18 U.S.C. § 3553(a)
factors, and use of judicial fact-finding. The panel
rejected Leonidas's objection to a firearm enhancement
and his argument that the district court violated Fed. R.
Crim. P. 32. The panel rejected Hernandez's objection
to the district court's application of obstruction-of-justice
and managerial-role enhancements, and rejected
Hernandez's and Leonidas's arguments that their life
sentences are substantively unreasonable.

Counsel: Katherine Kimball Windsor (argued), Law
office of Katherine Kimball Windsor, Pasadena,
California, for Defendant-Appellant Eduardo Hernandez.
Lawrence Jay Litman (argued), Riverside, California, for
Defendant-Appellant [**5] Javier Perez.
Phillip A. Treviño, Los Angeles, California, for
Defendant-Appellant Vladimir Alexander Iraheta.
Timothy A. Scott and Nicolas O. Jimenez, Scott Trial
Lawyers APC, San Diego, California; for DefendantAppellant Leonidas Iraheta.
Julia L. Reese (argued) and Kevin M. Lally, Assistant
United States Attorneys; Brandon D. Fox, Chief,
Criminal Division; Nicola T. Hanna, United States
Attorney; United States Attorney's Office, Los Angeles,
California; for Plaintiff-Appellee.

Judges: Before: Marsha S. Berzon, Richard C.
Tallman, and Ryan D. Nelson, Circuit Judges.

Opinion by: Richard C. Tallman

Nicolas Jimenez

Page 9 of 27
962 F.3d 420, *420; 2020 U.S. App. LEXIS 18526, **5

Opinion
[*430] TALLMAN, Circuit Judge:
This is a criminal appeal from judgments of conviction
and sentence rendered in the Central District of
California arising from the prosecution of four members
of a violent street gang. We affirm the convictions and
sentences of Appellants Eduardo Hernandez, Leonidas
Iraheta, and Vladimir Iraheta. We affirm in part and
reverse in part the convictions of Appellant Javier Perez,
vacate his sentence, and remand for further
proceedings.
I
The Columbia Lil Cycos (CLCS) clique of the 18th
Street gang controlled drug distribution, committed
extortion, and engaged in other illegal activities in
the [**6] Westlake neighborhood of Los Angeles from
at least the mid-1990s. CLCS and allied gangs operate
under the umbrella of the Mexican Mafia (the "Eme"), a
prison-based gang whose members, once behind bars,
continue to oversee the street gangs with which they
were affiliated before their incarceration.
When a street vendor defied CLCS's extortion regime in
September of 2007, the gang sent a gunman to murder
him for his [*431] impunity. But one bullet missed the
vendor and tragically killed 21-day-old Luis Angel
Garcia. Baby Garcia's death provoked an outcry for
action from the community and triggered a massive law
enforcement response. An initial federal indictment of
eighteen CLCS members and associates soon issued.
The fourth superseding indictment—the operative
pleading here—charged a total of twenty-four
defendants with twenty-one counts of racketeering, drug
trafficking, money laundering, murder, assault, maiming,
kidnapping, and various conspiracies and attempts to do
the same. By the time of trial in early 2012, only these
four Appellants remained to be tried. Their confederates
all pleaded guilty, and several— including former CLCS
leaders Sergio Pantoja, James Villalobos, and Jose
Delaguila—testified [**7]
for the government at
Appellants' trial.
The trial began on February 29, 2012. Appellants were
tried together on the theory that they were all members
of an illegal enterprise which carried out its nefarious
activities through a pattern of racketeering activity. The
criminal endeavors of Hernandez, Leonidas Iraheta
("Leonidas"), and his twin brother Vladimir Iraheta

("Vladimir"), on the one hand, and Perez on the other,
were different: Hernandez and the Iraheta twins were
convicted for their roles in running CLCS's narcotics and
extortion activities, while Perez's convictions arose out
of his participation in a conspiracy to kidnap and murder
the gunman responsible for baby Garcia's death,
Giovanni Macedo, to protect CLCS from reprisals by the
Eme for the infant's murder.

The CLCS Enterprise
By the mid-1990s, CLCS had come to dominate the
Westlake/MacArthur Park neighborhood of Los Angeles,
between Beverley Avenue and Wilshire Boulevard
(north to south) and Alvarado Street and Burlington
Avenue (west to east). A constituent clique of the
broader 18th Street gang, CLCS fought the Mara
Salvatrucha and, especially, Rockwood Street gangs for
primacy in Westlake. CLCS ran a sophisticated drugtrafficking [**8] and extortion racket in its territory. Drug
wholesalers ("mayoristas") and street-level dealers
("traqueteros") paid CLCS "rent" for the right to sell
drugs—mostly crack cocaine—on the street corners
near MacArthur Park. The dealers were strictly
controlled: a traquetero who broke CLCS rules by
selling outside his allotted shift or skimming money off
his collections was liable to be savagely beaten. Other
illegal businesses—document forgers, gamblers—paid
rent to CLCS, too, as did many legitimate businesses in
the neighborhood, under threat of violence.
CLCS
ruthlessly
defended
its
territory
from
encroachment. Armed bands of roving, gang-affiliated
youths ("little homies") were expected to "put in work" by
marking CLCS territory with copious graffiti and
undertaking expeditions into rival neighborhoods to
show strength and disrespect. Violence abounded: if a
rival gang passed through CLCS streets or marked
them with graffiti, gang leaders expected associates to
"[j]ump them," or, as one CLCS leader put it, to give
them "[a]n ass beating that . . . maybe he can't get up
off the floor and . . . sometimes if you have a gun or you
have a knife . . . you either just stab them or you
shoot [**9] them."
Witnesses for the government put Hernandez and the
Iraheta twins at the center of both CLCS
"gangbanging"—meaning tagging, enforcing, and
countering rivals—and drug distribution. Hernandez led
the collection of rents at a lucrative drug-dealing hub,
Westlake, from Third to Sixth Streets, in addition to
overseeing gangbanging. One witness called him "the

Nicolas Jimenez

Page 10 of 27
962 F.3d 420, *431; 2020 U.S. App. LEXIS 18526, **9
ultimate decisionmaker" on "what to do if any [*432]
problems occurred—meaning enemies coming into our
neighborhood or . . . homeboys going against homeboys
or whatever." Leonidas and Vladimir served as
Hernandez's "muscle," assisting him with rent collection
and leading "missions" into rival territory to "go do
something to a rival gang or to someone else; rob, tag
on the walls, anything."1
CLCS was led by Francisco Martinez, who—despite
being incarcerated at the "Supermax" federal prison
complex in Florence, Colorado—maintained control over
CLCS and other Los Angeles 18th Street cliques from
his cell. Originally a member of CLCS himself, Martinez
was convicted of "[r]acketeering and a bunch of
murders" in the 1990s and thereupon joined the Eme,
which continues to wield control over most of the
Hispanic gangs of Southern California. Martinez [**10]
maintained his grip over CLCS with the help of
disgraced attorney Isaac Guillen, who testified for the
government in Appellants' trial. Guillen used the shield
of the attorney-client privilege to circumvent Florence's
security procedures, secreting and passing information
and orders to and from Martinez and CLCS's street
leaders.
CLCS leaders, including Hernandez and both Irahetas,
would divvy up all the rent collected, section off
Martinez's share—usually $5,000 to $17,000 a week—
and deliver it to Guillen. Guillen would launder the
money by investing it in a variety of businesses,
funneling it to Martinez's relatives in Mexico, or putting it
on Martinez's inmate "books" at Florence. This scheme
enriched Martinez and enabled him to continue to
exercise control over this lucrative and violent Los
Angeles neighborhood.

The Garcia Murder and its Aftermath
Francisco Clemente sold black-market goods at a street
stand in CLCS territory. He got on the wrong side of
CLCS leaders by acting disrespectfully and refusing to
pay rent. In the summer of 2007, CLCS leader Pantoja
tired of Clemente and chased him out of the
neighborhood, telling rent-collector Juan Pablo Murillo to
"take care of it" if [**11] Clemente returned. When
Clemente did return, Murillo enlisted Macedo—then 18
years old—to show Clemente what became of those

1 Appellants

dispute their roles in CLCS's narcotics regime;
where relevant, we address their contentions below. We
recount the facts in the light most faithful to the jury's verdict.

who defied CLCS. Late at night on September 15, 2007,
Macedo and Murillo made their way to Clemente's stand
on Sixth Street, and Macedo fired several shots at him.
Clemente was wounded but survived. 21-day-old Garcia
was not so lucky—he was struck and killed by a stray
bullet.
When he found out what had happened, Pantoja
testified that he told Murillo the latter had "fucked up" by
killing baby Garcia, violating the Eme's strict code
against murdering infants and potentially triggering a
gang-wide "green light" whereby all CLCS members
would become targets for murder by other Eme-affiliated
gangs. Pantoja told Murillo that Macedo "had to be dealt
with." Murillo, a member of an allied 18th Street clique—
South Central—enlisted the help of fellow South Central
member Javier Perez. At around 10 p.m. on September
19, Murillo and Perez went to the home of another
South Central member, Flor Aquino, and demanded the
use of her Chevrolet Tahoe, purportedly to take Macedo
to San Diego to hide out. Aquino reluctantly agreed, but
decided she would do the driving. Murillo and [**12]
another gang member went to Macedo's apartment,
ordered him into the car, and drove away before
informing him they were taking him to Mexico. They met
up with Aquino and Perez at Aquino's home, [*433]
and together Murillo, Perez, Aquino, and Macedo
departed for Mexico.
Across the border in Tijuana the next day, Aquino
stayed with Macedo in the hotel while Murillo and Perez
met up with Pantoja, who had gone to Tijuana, he said,
to ensure Macedo was properly taken care of. Murillo
assured Pantoja he and Perez would "handle it," and
showed Pantoja a gun. Perez and Murillo returned to
the hotel and took Macedo out drinking, then back to the
hotel. Later that night, Perez, Murillo, Macedo, and
Aquino drove toward Mexicali through the Sierra Juárez
mountains on a cliffside highway, with Macedo in the
front passenger seat. Perez and Murillo—seated in the
back seat while Aquino drove—grabbed a rope, threw it
around Macedo's neck, and began to strangle him.
Murillo told Macedo he had messed up; Perez was less
circumspect: he yelled, "Die motherfucker, die!"
After strangling Macedo until he was bloodied, Perez
and Murillo checked to see if Macedo was still alive.
Believing him dead, Murillo and Perez [**13] dragged
Macedo out of the car and threw him over the cliffside.
But Macedo was alive: he woke up sliding down the cliff,
grabbed a tree root to check his fall, climbed back up to
the road, managed to hail a ride, and returned to the
United States. He later testified against Perez at trial.

Nicolas Jimenez

Page 11 of 27
962 F.3d 420, *433; 2020 U.S. App. LEXIS 18526, **13
After thirty-one trial days, the case was submitted to the
jury on May 3, 2012, and after several days of
deliberation, the jury returned a mixed verdict.
Appellants were all convicted of Count One (RICO
conspiracy, 18 U.S.C. § 1962(d)); Hernandez and the
Iraheta brothers were convicted of Count Two (narcotics
conspiracy, 21 U.S.C. § 841(a)(1), (b)(1)(A)(iii); id. §
846); and Perez was convicted of Counts Sixteen
(conspiracy to murder under 18 U.S.C. § 1959, the
Violent Crimes in Aid of Racketeering Statute, known as
"VICAR"), Seventeen (VICAR conspiracy to kidnap, id.),
Eighteen (VICAR attempted murder, id.), and Twenty
(conspiracy to kidnap, 18 U.S.C. § 1201(a)(1), (c)). The
jury hung on the VICAR murder count that accused
Hernandez and the Iraheta twins of the 2001 murder of
Jose Barajas, Jr., and it acquitted Perez of both
kidnapping and VICAR kidnapping.

Sentencing

history category of IV, resulted in a recommended
sentencing range of 360 months to life. The court
considered the 18 U.S.C. § 3553(a) factors, particularly
focusing upon the need for public safety and deterrence,
in determining that a life sentence was appropriate for
each of them.
Like his co-Appellants, Perez was sentenced to life.
Given our disposition as to Perez, we do not reach his
sentencing challenges.
II
We first evaluate each of Appellants' merits claims,
beginning with Hernandez and Leonidas's joint attempt
to access a sealed filing post-verdict, proceeding to
examine the same Appellants' challenge to certain
police officer testimony and Perez's extraterritoriality
claim, and finishing with consideration of all four
Appellants' sufficiency-of-the-evidence arguments.
A

Prior to sentencing, the United States Probation Office
completed Presentence Reports (PSRs) for all
Appellants. All parties filed [**14] objections, and an
amended PSR was also filed for Perez, updating the
recommended Sentencing Guidelines calculations in
response to some of the government's objections. The
district court conducted separate sentencing hearings
for each Appellant. All four Appellants were given life
sentences; Vladimir is the only Appellant who does not
challenge the court's sentencing determination.
The court's calculation of offense levels for Hernandez
and Leonidas relied upon the quantity of drugs it
determined were reasonably foreseeable under
U.S.S.G. § 2D1.1 (2014) (the version of the Guidelines
relevant to all determinations in this case and cited
throughout this opinion). Though they had separate
hearings, there was much overlap in the evidence
against them, given their identical charges of conviction
and track record of working together. The court used a
"multiplier method" to arrive at the conclusion that both
Appellants were responsible for distributing at least 25.2
kilograms of crack cocaine, which mandated a base
offense level of 38. From there, the district court applied
various sentencing enhancements to one or both
Appellants, including enhancements for possession of
firearms, use of threats, obstruction [**15] of justice,
and managerial role in the enterprise. Hernandez was
calculated to have a final offense level of 45, which
[*434] is above the cutoff for a recommendation of a
life sentence regardless of criminal history. Leonidas's
final offense level was 42 which, coupled with a criminal

Leonidas and Hernandez claim the district court erred in
blocking their counsel from viewing a post-verdict filing
made in camera by a third party. They [**16] speculate
that the filing contains "information that could have been
used to impeach . . . Guillen." HN1[ ] We review for
abuse of discretion a district court's denial of a motion to
unseal, see United States v. Sleugh, 896 F.3d 1007,
1012 (9th Cir. 2018),2 reversing only if the denial was
"illogical, implausible, or without support in inferences
that may be drawn from the facts in the record," United
States v. Hinkson, 585 F.3d 1247, 1263 (9th Cir. 2009)
(en banc).
We have examined the third-party filing at issue and
determined that the district court acted well within its
sound discretion in declining to allow Leonidas's and
Hernandez's attorneys to view it. Because of the
salacious nature of the content, we do not detail the
facts here. But we have carefully considered the
material and the arguments of defense counsel, and
hold that the suppressed evidence does not contain
Brady material.
B

2 The

appellant in Sleugh sought the unsealing of the Rule
17(c) applications of his co-defendant-turned-governmentcooperator. 896 F.3d at 1011. While those circumstances
differ from these—the appellants here seek mere in camera
review — Sleugh's logic applies here, as does its standard of
review.

Nicolas Jimenez

Page 12 of 27
962 F.3d 420, *434; 2020 U.S. App. LEXIS 18526, **16
Leonidas and Hernandez next assign as error the
district court's admission of large portions of testimony
from four law-enforcement witnesses. HN2[ ]
Appellants claim the government surreptitiously elicited
expert testimony from the officers—who were testifying
as lay witnesses, not experts—in violation of Rule 701
of the Federal Rules of Evidence. We review a district
court's evidentiary rulings for abuse of discretion "and
uphold them unless they are illogical, [**17]
implausible, or without support in inferences that may be
drawn from the facts in the record." United States v.
Gadson, 763 F.3d 1189, 1199 (9th Cir. 2014) (internal
citation omitted). And the plain-error standard governs a
witness's opinion not objected to at trial, see id. at 1209:
we decline to reverse based on an erroneous
evidentiary ruling unless the district court's refusal to
intervene sua sponte is "(1) error; (2) that is plain; (3)
that affects substantial rights; and (4) . . . seriously
affects the fairness, integrity, or public reputation of
judicial proceedings," United States v. Pelisamen, 641
F.3d 399, 404 (9th Cir. 2011) (citing Johnson v. United
[*435] States, 520 U.S. 461, 466-67, 117 S. Ct. 1544,
137 L. Ed. 2d 718 (1997)). Any error in admitting a lay
witness's opinion is harmless so long as "in light of the
evidence as a whole, there was a 'fair assurance that
the jury was not substantially swayed by the error.'"
Gadson, 763 F.3d at 1208 (quoting United States v.
Freeman, 498 F.3d 893, 905 (9th Cir. 2007)).
1
The government called officers Joe Guadian, Paul
Keenan, Manuel Rodriguez, and Daniel Jenks as
witnesses during its case-in-chief. At the times relevant
to their testimony, Guadian was a federal Bureau of
Prisons (BOP) investigator, Keenan and Rodriguez
were FBI Special Agents, and Jenks was an LAPD
detective; Keenan was the lead case agent for the
prosecution. The four officers opined on a variety of
subjects. Appellants claim that some of this testimony,
including [**18] their opinions on "code words, phone
calls, graffiti, and tattoos," was not permissible layopinion testimony.
HN3[ ] Rule 701 of the Federal Rules of Evidence
"allows a lay witness to offer opinions that are (a)
'rationally based on the witness's perception,' (b)
'helpful' to the jury, and (c) 'not based on scientific,
technical, or other specialized knowledge within the
scope of' expert testimony." Gadson, 763 F.3d at 1206
(quoting Fed. R. Evid. 701). This rule applies with equal
force to a law-enforcement witness: a police officer may
have knowledge derived specifically from an
investigation, and he may offer opinions based on that

knowledge, but his employment does not endow him
with any freestanding license to offer opinions. For
instance, he may offer interpretations of "ambiguous
conversations based upon his direct knowledge of the
investigation," Freeman, 498 F.3d at 904, or translate
the drug jargon used by the targets of his investigation,
see United States v. Reed, 575 F.3d 900, 923 (9th Cir.
2009). But he may not "testify based on speculation, rely
on hearsay or interpret unambiguous, clear statements."
United States v. Lloyd, 807 F.3d 1128, 1154 (9th Cir.
2015) (internal citation omitted) (prejudicial error to
admit statement that "[e]verybody that [the witness had]
ever worked with will always stretch the truth and make .
. . outright lies especially in certain techniques"). Guided
by these principles [**19] from our case law, we
evaluate each officer's testimony in turn.

Prison Investigator Joe Guadian
Guadian testified on the fourth and fifth days of trial,
offering background on the Eme before analyzing the
tattoos, associations, visitations, funds deposits, and
communications of Eme members incarcerated at
Florence, particularly Martinez. Guadian expressly
based his testimony on information gleaned from his
investigation of the Eme, his personal observations of
Martinez, and his interaction with other Eme inmates.
Leonidas and Hernandez posit that much of Guadian's
testimony was "classic expert testimony," but they did
not so object at trial; their few objections did not serve to
bring the competency issue to the trial court's attention.3
Review is thus for plain error. See Gadson, 763 F.3d at
1209.
Leonidas and Hernandez assert that, because the sort
of testimony offered by Guadian has been elicited from
expert [*436] witnesses in other cases, it cannot be
lay-opinion testimony here. HN4[ ] But whether
evidence is more properly offered by an expert or a lay
witness "depends on the basis of the opinion, not its
subject matter." United States v. Barragan, 871 F.3d
689, 704 (9th Cir. 2017). The basis of Guadian's
opinions—his prolonged and searching scrutiny of the
subject enterprise—entitled [**20] him to opine on most

3A

defendant who fails to object to lay-opinion testimony
under Rule 701 may nevertheless preserve his objection—and
trigger abuse-of-discretion review on appeal—if he objects to
"hearsay, speculation, and lack of foundation," which serves to
"raise the essence of these concerns." Freeman, 498 F.3d at
904. No such objections were made here.

Nicolas Jimenez

Page 13 of 27
962 F.3d 420, *436; 2020 U.S. App. LEXIS 18526, **20
of the subjects of his testimony. See Freeman, 498 F.3d
at 902 (an officer may "interpret ambiguous statements
based on his general knowledge of the investigation").
Guadian knew about the money Martinez received in his
inmate account, for example, because he tracked the
account. And he drew on years of investigating CLCS
and the Eme in interpreting ambiguous terms in
Martinez's letters—jargon like "rent" and code phrases
like "higher court judge."

Keenan directly observed the communications,
meetings, and searches he described. And while his
comprehension of [**22] jargon and knowledge of drug
trafficking would be suitable subjects for expert
testimony, his investigation into CLCS was a proper
basis for offering his lay opinions on these subjects. See
Gadson, 763 F.3d at 1209. The district court did not
abuse its discretion in allowing Keenan's testimony.

While some of Guadian's opinions—such as his foray
into the Eme's Mayan roots—arguably transgressed
Rule 701's restrictions, we cannot say that any error
meets our plain-error standard. That is, even if the
district court should not have admitted isolated aspects
of Guadian's testimony, its error in declining to intervene
sua sponte was not "plain," did not "affect[] substantial
rights," and did not "seriously affect[] the fairness,
integrity, or public reputation" of the trial. Pelisamen,
641 F.3d at 404 (internal citation omitted). Asked
repeatedly at oral argument about what prejudice
Leonidas and Hernandez suffered because of the
admission of Guadian's opinions on the history of the
Eme and its Mayan roots, counsel was unable to point
to a single concrete connection between [**21] the
offending opinions and Appellants' convictions. See,
e.g., Tr. of Oral Arg. at 5:36-5:59; 8:01-8:07; 15:2216:24.

Special Agent Manuel Rodriguez

Counsel's inability to point to any actual prejudice from
the district court's admission of Guadian's opinions
reinforces what is obvious: allowing Guadian to testify
as he did was not plain error.

Rodriguez's
interpretation
of
the
wiretapped
conversation between Pantoja and Guillen is just the
kind of "ambiguous conversation[]" a lay witness with
direct knowledge of an investigation—and, [**23] in this
case, long hours spent listening to wiretaps and
observing meetings—can clarify for the jury under
Freeman. 498 F.3d at 904. The translation of Pantoja's
coded language required no technical or specialized
knowledge, see Fed. R. Evid. 702—just familiarity with
the subjects. Nor was it paraphrasing "unambiguous,
clear statements." Lloyd, 807 F.3d at 1154. See also
Gadson, 763 F.3d at 1231 (Berzon, J., concurring in
part and dissenting in part). Likewise, telling the jury that
he thought the graffiti letters "XVIII" stood for "18"
required no hidden calculus or reliance on hearsay, as
Appellants allege.

Special Agent Paul Keenan
Special Agent Keenan, the FBI's lead case agent,
testified on the trial's tenth and eleventh days.
Appellants repeatedly objected to the relevance and
foundation of Keenan's testimony; review is thus for
abuse of discretion. See Freeman, 498 F.3d at 904.
Keenan testified about activities he observed and
conducted during the investigation he led into CLCS,
including surveillance of members' meetings and drug
distribution efforts; wiretaps of their phones; controlled
purchases from gang members; and the results of
searches of CLCS-affiliated properties. He matched
gang members to monikers and vice versa, translated
gang jargon, and identified indicia of drug trafficking,
such as small plastic bags and digital scales. None of
this testimony was impermissible under Rule 701.

FBI Special Agent Rodriguez testified on the eleventh
day of trial. We review the district court's admission of
Rodriguez's testimony for abuse of discretion;
Appellants' foundation objection served to raise their
concerns to the district court. See Freeman, 498 F.3d at
904.
Rodriguez's testimony mirrored that of Keenan: he
identified callers on wiretaps [*437] by their voices,
detailed FBI surveillance of the CLCS figures at issue,
and matched gang members to their monikers and vice
versa. He offered a few specific opinions that implicate
Rule 701: Rodriguez interpreted graffiti and opined that
when Pantoja asked Guillen if Pantoja could "take [his]
boy to practice tomorrow," he was really asking if he
could deliver drug proceeds to Guillen.

Even if the district court abused its discretion in allowing
Rodriguez's testimony, we are convinced the error was
harmless. Most of Rodriguez's testimony—like that of
the other officers—simply provided the jury with
informative but only tangentially relevant information
about CLCS's overall activities and the means by which
the police investigated them. We cannot imagine that

Nicolas Jimenez

Page 14 of 27
962 F.3d 420, *437; 2020 U.S. App. LEXIS 18526, **23
the jury's hearing that "XVIII" meant "18," for example,
had any discernible effect on their verdict as to whether
Appellants conspired to distribute narcotics. We have no
difficulty in rejecting Appellants' challenge to
Rodriguez's testimony.

Detective Daniel Jenks
Finally, LAPD Detective Jenks [**24] testified on the
twenty-fourth trial day. Jenks summarized the content of
(1) wiretapped calls made by Murillo, including
translations of gang slang, (2) jail phone calls made to
Perez, and (3) searches, interviews, and arrests
conducted after baby Garcia's murder. Leonidas and
Hernandez challenge Jenks's opinions on the Murillo
and Perez calls as improper under Rule 701. But
Leonidas and Hernandez said nothing at trial about the
Perez calls; it was Perez's counsel who objected to their
introduction, and only after Jenks offered his opinion on
the contents of the Murillo calls. The district court
therefore lacked timely notice of Appellants' objection to
Jenks's opinions on the Murillo calls—which Leonidas
and Hernandez now press on appeal—until after Jenks
had finished opining on them. The Perez calls have
nothing to do with Leonidas and Hernandez. Allowing
Jenks to offer his opinion on them did not affect
Leonidas and Hernandez in any way. That leaves the
Murillo calls. Because there was no relevant objection
until after Jenks had already opined on their meaning,
we evaluate whether the court's failure to intervene sua
sponte to prevent the testimony was plain error.
In a few places, Jenks's [**25] testimony approached
the line of permissibility under Rule 701. For instance,
the jury was played a recording of a conversation
between Murillo and a friend, in which Murillo,
describing the requirement that those who sold drugs in
CLCS territory pay rent, told the friend, "['C]ause I mean
ain't . . . nobody doing no dope slanging for free, dog. I
don't care who." Jenks told the jury this meant "that
nobody gets to sell for free; they're going to have to pay,
basically, a tax or a fee to sell narcotics." This
approaches the line Judge Berzon [*438] warned
about in her partial concurrence in Gadson: rather than
translating slang or ambiguous conversations, Jenks
simply paraphrased Murillo's words in a way that made
their incriminating nature clearer. See 763 F.3d at 1231
(Berzon, J., concurring in part and dissenting in part).
But even if Leonidas and Hernandez might properly
have objected to the admission of Jenks's opinions at
trial, this is plain-error review—and they come nowhere

close to alleging plain error. The line between lay and
expert testimony in this context, we have acknowledged,
"is a fine one." Freeman, 498 F.3d at 904. Even
granting, for sake of argument, that any error in
admitting Jenks's opinions should have been
plain [**26] to the district court, Leonidas and
Hernandez cannot show that allowing the jury to hear
those opinions affected their substantial rights or the
fairness of the proceedings. A thorough examination of
the transcripts of Murillo's phone conversations reveals
they do not so much as mention any Appellant's name
or moniker, nor do they pertain in any way to Leonidas's
or Hernandez's roles in CLCS. There was no plain error
in allowing this testimony.
2
Appellants concede that other lay witnesses—former
CLCS members—properly corroborated nearly all the
officers' challenged testimony,4 but argue that those
witnesses—Pantoja, Delaguila, Alexander Serrano,
Villalobos, and Guillen—were "inherently suspect
because they were testifying in exchange for sentence
reductions." But Appellants' counsel deftly elicited the
cooperators' incentive to deceive on cross-examination;
the jury was well aware of the sentence reductions each
was in line to receive, and it chose to credit their
testimony anyway. HN5[ ] There is no rule in our
Circuit that a criminal conviction may not, as a matter of
law, rest on the testimony of government cooperators. In
our system, "[i]t is up to the jury . . . to determine the
credibility [**27] of a witness' testimony." United States
v. Weatherspoon, 410 F.3d 1142, 1147 (9th Cir. 2005).
We decline Appellants' invitation to intrude on the
province of the jury.
And Appellants ignore the import of the agents'

4 For

example, Pantoja corroborated Guadian's testimony as to
the meanings of 18th Street and Eme tattoos. Guillen
deposited the money in question in Martinez's account and
attested to that fact and others regarding the inmate-funds
system. Guillen also authenticated and provided firsthand
testimony about several of the letters Guadian identified.
Several witnesses corroborated Guadian's testimony
regarding the Eme's structure and authority. Keenan's moniker
opinions were echoed by nearly everyone who took the stand,
and while his description of searches was novel, testimony
about what those searches uncovered—namely, narcotics—
pervaded the trial. Jenks's testimony relating to Murillo's
calls—which did not so much as mention Hernandez or
Leonidas—was confirmed by numerous witnesses who
testified about CLCS's drug dealing and gangbanging
activities.

Nicolas Jimenez

Page 15 of 27
962 F.3d 420, *438; 2020 U.S. App. LEXIS 18526, **27
testimony, which was not primarily to implicate
Appellants in illicit activity, but rather to prove the
existence of a criminal enterprise, which conducted its
business through a pattern of racketeering activity,
including a conspiracy to distribute narcotics. Dozens of
other witnesses—lay and expert, law enforcement and
gang member—established CLCS's narcotics and
racketeering endeavors. Given "the overwhelming
evidence" that the enterprise and conspiracy existed
based on other witnesses' testimony, Lloyd, 807 F.3d at
1168, we have more than "a fair assurance that the jury
was not substantially swayed by the error," Gadson, 763
F.3d at 1208 (internal quotation marks and citation
omitted).
[*439] The district court diligently patrolled the line
between lay and expert testimony. In those few
instances in which admission of these four witnesses'
testimony was error, Appellants suffered no prejudice.
We decline to disturb Appellants' convictions on this
basis.
C
Perez challenges his convictions on four counts,
alleging the district court improperly instructed the jury
on the extraterritorial application [**28] of the VICAR
statute at issue. HN6[ ] We review de novo both a
district court's determination of a statute's extraterritorial
reach, see United States v. Ubaldo, 859 F.3d 690, 699
(9th Cir. 2017), and jury instructions "challenged as
misstatements of law," United States v. Kleinman, 880
F.3d 1020, 1031 (9th Cir. 2017) (internal citation
omitted).
1
HN7[ ] Federal statutes are presumed to apply only
within American territorial jurisdiction. See Foley Bros.,
Inc. v. Filardo, 336 U.S. 281, 285, 69 S. Ct. 575, 93 L.
Ed. 680 (1949). The so-called presumption against
extraterritoriality has both descriptive and normative
justifications: it is based in part on "the commonsense
notion that Congress generally legislates with domestic
concerns in mind," Smith v. United States, 507 U.S.
197, 204 n.5, 113 S. Ct. 1178, 122 L. Ed. 2d 548 (1993),
and it serves to prevent "unintended clashes between
our laws and those of other nations which could result in
international discord," EEOC v. Arabian Am. Oil Co.,
499 U.S. 244, 248, 111 S. Ct. 1227, 113 L. Ed. 2d 274
(1991). Unless a statute gives "a clear, affirmative
indication that it applies extraterritorially," it covers only
domestic conduct. RJR Nabisco, Inc. v. European
Cmty., 136 S. Ct. 2090, 2101, 195 L. Ed. 2d 476 (2016).

HN8[ ] RJR Nabisco lays out a two-step process for
determining whether a statute has extraterritorial effect.
First, we ask "whether the presumption against
extraterritoriality has been rebutted." Id. The
presumption "can be rebutted only if the text provides a
'clear indication of an extraterritorial application.'"
WesternGeco LLC v. ION Geophysical Corp., 138 S. Ct.
2129, 2136, 201 L. Ed. 2d 584 (2018) (quoting Morrison
v. Nat'l Australia Bank, Ltd., 561 U.S. 247, 255, 130 S.
Ct. 2869, 177 L. Ed. 2d 535 (2010)). Second, if the
statute does not apply extraterritorially, we ask "whether
the [**29] case involves a domestic application of the
statute"; that is, whether "the conduct relevant to the
statute's focus occurred in the United States." RJR
Nabisco, 136 S. Ct. at 2101.5
2
Perez finds fault in the district court's instruction to the
jury on Counts [*440] One, Sixteen, Seventeen, and
Eighteen of the indictment. Count One charged a RICO
conspiracy, while the other three charged VICAR
counts: Count Sixteen charged conspiracy to murder,
Seventeen charged conspiracy to kidnap,6 and Eighteen
alleged attempted murder, all under VICAR's umbrella.7

5 Early

in this doctrine's development, the Supreme Court
suggested that the presumption should not apply equally to
"criminal statutes which are, as a class, not logically
dependent on their locality for the government's jurisdiction."
United States v. Bowman, 260 U.S. 94, 98, 43 S. Ct. 39, 67 L.
Ed. 149 (1922). We have applied the presumption to criminal
statutes, albeit without mentioning Bowman. See Ubaldo, 859
F.3d at 700. And most courts of appeals applying Bowman still
require the government to show that the presumption against
extraterritoriality has clearly been rebutted by the text of the
statute. See, e.g., United States v. Sota, 948 F.3d 356, 360
(D.C. Cir. 2020); United States v. Hoskins, 902 F.3d 69, 96 (2d
Cir. 2018); United States v. Vasquez, 899 F.3d 363, 373 n.6
(5th Cir. 2018). But see United States v. Leija-Sanchez, 602
F.3d 797, 798 (7th Cir. 2010) (applying Bowman to hold
VICAR applies extraterritorially without relying on the text of
VICAR to rebut the presumption). Because we hold that the
question of VICAR's extraterritorial reach is controlled by RJR
Nabisco, we do not grapple with Bowman.
6 Perez

does not challenge his conviction on Count Seventeen
because the jury found, with respect to Count Twenty's
conspiracy-to-kidnap charge, that both the conspiracy's origin
and an overt act in furtherance of the conspiracy took place in
the United States. See Tr. of Oral Arg. at 23:40.
7 Six

California Penal Code sections formed the basis of
Perez's VICAR convictions: Cal. Penal Code §§ 21(a), 31,
182, 187, 189, and 664. At the time of trial, § 21(a) defined

Nicolas Jimenez

Page 16 of 27
962 F.3d 420, *440; 2020 U.S. App. LEXIS 18526, **29
In instruction 52, the district court told the jury, "The
RICO and VICAR statutes apply extraterritorially. It
therefore is not necessary for the government to prove,
with respect to Counts One . . . Sixteen, Seventeen,
[and] Eighteen . . . that any part of the charged crime
took place within the United States."
That instruction is wrong.8 HN9[ ] RJR Nabisco
explicitly held that RICO, 18 U.S.C. § 1962—the statute
charged in Count One—may have extraterritorial effect,
"but only to the extent that the predicates alleged in a
particular case themselves apply extraterritorially." 136
S. Ct. at 2102. And there is an evident analogy between
RICO and VICAR, the basis [**30] of Perez's
convictions on Counts Sixteen and Eighteen. VICAR
incorporates RICO's definition of "racketeering activity,"
see 18 U.S.C. § 1959(b)(1), and it, too, brings under its
umbrella some wholly extraterritorial acts, such as the
federal prohibition on a United States national killing
another United States national abroad, see id. §
1959(a)(1); id. § 1119(b). In light of this authority, then,
VICAR at least may reach a crime committed abroad
with sufficient nexus to the conduct of an enterprise's
affairs.
HN10[ ] But VICAR does not reach all crimes
committed in other countries. If the laws of the United
States or the States cannot reach foreign conduct,
neither may VICAR. And the predicate crimes with
which Perez was charged—California's attempted
murder statute and its definitional components—do not
proscribe wholly extraterritorial acts. HN11[ ]
California's jurisdictional statutes and case law explicitly
rule out punishing an act committed entirely in another
country: California may exercise its "territorial
jurisdiction over an offense if the defendant, [1] with the
requisite intent, [2] does a preparatory act in California
attempt; § 31 outlined accomplice liability; § 182 detailed
conspiracy; § 187 defined murder; § 189 separated first- and
second-degree murder; and § 664 laid out punishments for
inchoate offenses.
8 Whether

it was wrong when the district court gave it in 2012
is another question. During the time between final judgment
and submission after oral argument on appeal, the law of
extraterritoriality changed at least twice in our Circuit. See
United States v. Chao Fan Xu, 706 F.3d 965 (9th Cir. 2013)
(RICO does not apply extraterritorially), abrogated by RJR
Nabisco, 136 S. Ct. at 2102 (RICO reaches foreign conduct to
the extent its predicates do). The district judge here did an
exceptional job handling this complex case involving multiple
defendants and multiple counts that would have posed a
challenge to even the most conscientious jurist.

that is more than a de minimis act toward the eventual
completion of the offense." People v. Betts, 34 Cal. 4th
1039, 23 Cal. Rptr. 3d 138, 103 P.3d 883, 887 (Cal.
2005). See also [**31] Cal. Penal Code § 778a(a).
It may well be that California could exercise its
jurisdiction over the conduct charged here: even though
the California murder statute does not cover wholly
extraterritorial conduct, the government presented
substantial evidence that Perez [*441] joined an
existing conspiracy to murder Macedo formulated in the
United States, and that his conduct thus came within the
statute's domestic "focus." See RJR Nabisco, 136 S. Ct.
at 2101; Cal. Penal Code § 778a(b) (allowing criminal
sanction for a person who "within this state, kidnaps
another person . . . and thereafter carries the person
into another state or country and commits any crime of
violence or theft against that person"). See also People
v. Brown, 91 Cal. App. 4th 256, 109 Cal. Rptr. 2d 879,
881-83 (Cal. Ct. App. 2001) (California had jurisdiction
to prosecute a doctor who caused victim's death through
botched amputation performed in Mexico—but who
picked the victim up and received payment in
California). The government presses this point on
appeal, arguing that "conduct relevant to the statute's
focus clearly occurred in the United States." But the jury
deciding Perez's guilt was instructed that it could convict
Perez without finding any of his conduct occurred in the
United States. Because California requires the
formulation of criminal intent—and a non-de-minimis act
in furtherance [**32] of the crime's commission—in
California, the district court's instruction was in error.
3
HN12[ ] Even though the extraterritoriality instruction
to the jury misstated the law, "[a]n improper jury
instruction does not require reversal if the error is
harmless." United States v. Garcia, 729 F.3d 1171,
1177 (9th Cir. 2013). See also Chapman v. California,
386 U.S. 18, 24, 87 S. Ct. 824, 17 L. Ed. 2d 705 (1967).
A "constitutional" error is only harmless if we are
satisfied "beyond a reasonable doubt that the . . .
instruction . . . did not contribute to the guilty verdict."
Kleinman, 880 F.3d at 1035. Whether a jury-instruction
error is constitutional is sometimes "not clear." United
States v. Hernandez, 476 F.3d 791, 801 (9th Cir. 2007).
Where that error lies in defining the offense, we have
required harmlessness to be proven beyond a
reasonable doubt. See, e.g., Neder v. United States,
527 U.S. 1, 19-20, 119 S. Ct. 1827, 144 L. Ed. 2d 35
(1999) (error subject to harmless-error review where the
instruction omitted an element of the offense); Garcia,

Nicolas Jimenez

Page 17 of 27
962 F.3d 420, *441; 2020 U.S. App. LEXIS 18526, **32
729 F.3d at 1177-78 (erroneous definition of
manslaughter was constitutional error). While the district
court's misstatement of 18 U.S.C. § 1959's geographic
reach was not the omission of an element (like the
errors in Neder and Garcia), it was tantamount to such
an error.
That error incorrectly described the district court's
authority to hail Perez before the court and to punish
him for conduct occurring outside its physical
jurisdiction. Like the statutory elements in Neder and
Garcia, a nexus [**33] between American territory and
Perez's participation in the crimes alleged is a
necessary condition for his conviction where, as here,
the statute does not reach Perez's purely extraterritorial
criminal conduct. As a result of the error, the jury was
wrongly told it could find him guilty for crimes occurring
solely in Mexico. We think this error has a constitutional
due process dimension: it relieved the United States of
the burden of proving the required connection between
American territorial jurisdiction and the crimes in Counts
One, Sixteen, Seventeen, and Eighteen for which Perez
stood trial in the Central District of California. See
United States v. Davis, 905 F.2d 245, 248-49 (9th Cir.
1990) (framing extraterritorial application of a statute in
due process terms); cf. In re Winship, 397 U.S. 358, 90
S. Ct. 1068, 25 L. Ed. 2d 368 (1970) (proof of a criminal
charge beyond a reasonable doubt required by due
process). We therefore evaluate whether the
instructional error as to those Counts was harmless
beyond a reasonable doubt.
[*442] We see three considerations to weigh in our
harmlessness calculus: (1) the weight of the evidence
establishing the conspiracy's beginning in this country;
(2) the jury's special finding regarding the date on which
the conspiracy began; and (3) the court's instruction on
Count Sixteen, [**34] wherein the jury heard that to
convict Perez of conspiracy to murder, it must find that
"an overt act was committed in this state." On the basis
of all three factors combined, we find the instructional
error harmless as to Count Sixteen, but reverse as to
Count Eighteen where no contrary instruction cured the
initial error.
i
HN13[ ] Our harmless-error standard emphasizes that
where evidence of a defendant's guilt is "overwhelming,"
even significant jury-instruction error can be harmless.
See, e.g., United States v. Conti, 804 F.3d 977, 981 (9th
Cir. 2015). However, failing to instruct on an element of
a crime is not harmless if there is sufficient evidence

that the jury could have found in favor of the defendant if
properly instructed. Neder, 527 U.S. at 19.
At trial, the government presented compelling evidence
that the conspiracy to murder Macedo began in
California shortly after Garcia's death. The jury heard
testimony that the Eme-mandated "green light"—the
authorization for all Southern California Hispanic gangs
to punish CLCS for baby Garcia's murder—was
"automatic" as soon as the infant died. Isaac Guillen told
the jury that a gang that fails to "clean [its] own house"
by taking out the murderer of a child starts "getting hit"
by other gang members in lockup, and [**35] that other
Eme members would expect Martinez to green-light
CLCS members if they had killed an infant.
Pantoja's testimony was key. He was repeatedly
pressed about the origins of the conspiracy to murder
Macedo, testifying that if Macedo was left alive, all of
CLCS would come under sustained attack from other
gangs. He told the jury his plan was to kill Macedo all
along, that Macedo's death was necessary to spare
CLCS, and that he started preparing immediately to kill
Macedo. The jury was entitled to credit Pantoja's
testimony: the evidence was sufficient to support
Perez's convictions. See Part II.D.2, infra.
But sufficient is not overwhelming. As Perez points out,
Pantoja gave shifting and contradictory explanations for
bringing $30,000 to Mexico, ultimately telling the jury he
did not know why he brought the money along. (Perez
claims the $30,000 was to pay to board Macedo in
Mexico—money that would be unnecessary if the plan
were to kill Macedo the whole time.) Perez also elicited
from Pantoja that, despite the latter's earlier testimony
that everyone knew a green light automatically attached
to the murderer of a child, Macedo himself was
apparently completely in the dark about the [**36]
ramifications of having killed Garcia.
These inconsistencies bolster the defense theory of the
case: that Pantoja planned to hide Macedo out in
Mexico—and brought money to board him there—but
ultimately changed his mind in Mexico and ordered
Macedo's death. And Perez made his case plain by
hammering Pantoja's trial statements' inconsistency with
Pantoja's previous proffers, in which Pantoja had told
the government he ordered Macedo taken to Mexico to
hide him out, not to kill him. HN14[ ] Our precedents
establish a high bar for finding harmlessness beyond a
reasonable doubt. See, e.g., Neder, 527 U.S. at 19
(error not harmless where defendant "contested the
omitted element and raised evidence sufficient to

Nicolas Jimenez

Page 18 of 27
962 F.3d 420, *442; 2020 U.S. App. LEXIS 18526, **36
support a contrary finding" (emphasis added)). Pantoja
was the government's key [*443] witness as to the
conspiracy's origins. His credibility problem and
conflicting accounts of the plan to kill Macedo would
have given the jury ample ground "to support a contrary
finding." Id. Thus, while the weight of the evidence cuts
in favor of harmlessness, we do not find that the
evidence alone is a sufficient basis for finding the juryinstruction error harmless.
ii
In finding Perez guilty of Count One, the jury made a
special [**37] finding that the conspiracy to murder
Macedo began "on or about September 15, 2007"—the
date of baby Garcia's murder—and continued through
"on or about September 21, 2007"—the day Perez and
Murillo tried to kill Macedo. Murillo picked up Macedo in
the Los Angeles area to take him to Mexico late at night
on September 19, and they arrived in Tijuana, Mexico,
early in the morning on September 20—four days after
Garcia's murder and just a day before the attempted
murder of Macedo.
That the jury found the conspiracy began "on or about
September 15" is strong evidence it believed the
government's case that the plan was hatched in the
Central District of California. It would be strange indeed
for a juror who believed Perez's theory of the case to
sign off on this finding despite believing it set the
conspiracy's beginning five days too early—on a six-day
timeline. But, as one of the district court's earlier
instructions clarifies, "on or about" is flexible: the court
told the jury it need only find the crime was committed
"on a date reasonably near the date alleged in the
indictment," not "precisely on the date charged." Our
case law holds that eighteen days is "reasonably near"
the date alleged, [**38] see United States v. Hinton,
222 F.3d 664, 672-73 (9th Cir. 2000), though two years
is not, United States v. Tsinhnahijinnie, 112 F.3d 988,
991-92 (9th Cir. 1997). With this background in mind,
we cannot say we are convinced beyond a reasonable
doubt that every juror who agreed the conspiracy began
"on or about September 15" definitively ruled out that it
began on September 20.
iii
The final piece of this harmlessness puzzle is the most
important: in its specific instruction regarding Count
Sixteen—the VICAR conspiracy to murder—the district
court told the jury that, in order to convict, it must find,
among other elements, that "an overt act was committed
in this state by one or more of the persons" involved.

The jury was thus correctly apprised of the facts
necessary to trigger California's jurisdiction over the
crime. See Betts, 103 P.3d at 887. Because it came
immediately after the incorrect instruction and more
specifically addressed the jurisdictional question, jurors
deciding Perez's guilt on that count could be left with
little doubt that they could not convict Perez solely on
the basis of his conduct in Mexico. Together with the
evidence of the conspiracy's origin in California, and the
jury's special finding on Count One, the correct
instruction on Count Sixteen convinces us that the
district court's jury-instruction error was [**39] harmless
as to that count, and Perez's conviction for VICAR
conspiracy to murder should therefore stand.9
[*444] The same cannot be said for Perez's conviction
on Count Eighteen, VICAR attempted murder. No
correct instruction cured the earlier, wrongful instruction.
Indeed, the presence of the territorial requirement in
Count Sixteen's instruction may have served only to
draw the jury's attention to the lack of such a domestic
requirement on Count Eighteen. Because the weight of
the evidence and the special finding alone do not
eliminate all reasonable doubt about what the jury
determined about the location of the conspiracy's origin,
we reverse Perez's conviction on Count Eighteen. The
government may elect to retry Perez on that count
following remand, or, if the government decides not to
retry him, the district court can simply resentence Perez
without Count Eighteen.
D
Finally, all four Appellants challenge the sufficiency of
the evidence underlying their convictions. HN15[ ] We
review the denial of a defendant's motion to acquit de
novo. See United States v. Christensen, 828 F.3d 763,
780 (9th Cir. 2015). The evidence underlying a
conviction is sufficient if, "viewing the evidence in the
light most favorable to the prosecution, any
rational [**40] trier of fact could have found the

9 Because

we hold with regard to Count Sixteen—and Perez
concedes as to Counts Seventeen and Twenty—that his
convictions were properly based on territorial conduct, we also
affirm his conviction on Count One, RICO conspiracy. 18
U.S.C. § 1962(d) does not require that each conspirator
commit two independent predicate offenses. See Salinas v.
United States, 522 U.S. 52, 65-66, 118 S. Ct. 469, 139 L. Ed.
2d 352 (1997). But a conspirator's individually committing
multiple predicate offenses is certainly sufficient to support a
RICO conspiracy conviction where, as here, the other
statutory requirements are met.

Nicolas Jimenez

Page 19 of 27
962 F.3d 420, *444; 2020 U.S. App. LEXIS 18526, **40
essential elements of the crime beyond a reasonable
doubt." United States v. Phillips, 929 F.3d 1120, 1123
(9th Cir. 2019) (internal citation omitted). See also
Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781,
61 L. Ed. 2d 560 (1979).
1
Hernandez and both Iraheta brothers challenge the
sufficiency of the evidence underlying their convictions
on Count Two, narcotics conspiracy. All three moved for
acquittal after the verdict was returned. HN16[ ] To
convict these Appellants for narcotics conspiracy, the
government was required to show: (1) there existed an
agreement between two or more persons to possess
with intent to distribute or to distribute crack cocaine or
methamphetamine or both; and (2) Appellants joined the
agreement knowing of its purpose and intending to help
accomplish that purpose. Little need be said regarding
the existence of an agreement to distribute drugs: the
evidence showed drug distribution was the cornerstone
of CLCS's enterprise, its raison d'etre. Nearly every
witness who took the stand testified to some aspect of
CLCS's pervasive regime of crack dealing. The
evidence of its existence was truly overwhelming.
So too was the evidence of Hernandez's central role in
the charged conspiracy. Multiple witnesses referred to
Hernandez as a "shot caller" or leader of CLCS's drugtrafficking [**41] operation. Alexander Serrano, who
was the lead rent collector at Eighth and Burlington,
testified that Hernandez "was the one in charge of
[Westlake Avenue] collecting rent" in 2000; Villalobos
and Delaguila said the same. Villalobos's testimony was
particularly informative:
PROSECUTOR: Okay. What role did Defendant
Hernandez have at Westlake?
VILLALOBOS: [Hernandez] had ultimate control of
who was going to sell—what material is going to be
on the street; what Mayorista he wants there—all—
controlled all the narcotics on the streets . . .
Westlake was regarded as one of the crown jewels of
CLCS's narcotics operation: Pantoja testified that
Hernandez collected between $5,000 and $8,000 per
week in rent from the street's traqueteros and
mayoristas, and that it was Hernandez's [*445] idea to
begin taxing vendors like Clemente. Guillen testified that
Hernandez was part of Martinez's "legal team"—the "top
echelon" of his trusted lieutenants, and that Hernandez
was charged with delivering the proceeds from CLCS's
narcotics sales to Guillen when Pantoja was
unavailable. There is more, but it is clear that, viewing
this evidence in the light most favorable to the

prosecution, a reasonable trier of fact [**42] could
convict Hernandez for his participation in the narcotics
conspiracy.
Likewise, Vladimir Iraheta's participation in CLCS's
narcotics operation cannot seriously be questioned.
Vladimir concedes that "he has been a gang affiliate"
with "a history of prior arrests for narcotics related
conduct." But he claims there was "scant evidence
concerning the activities of or any acts actually
performed by" him. He blames "an inflamed jury" for
convicting him on the narcotics conspiracy because of
the evidence of murder presented against him.
At trial, the government put on copious evidence that
Vladimir played an integral role in CLCS's drugtrafficking operation. Like Hernandez, Vladimir was held
to be among Martinez's "legal team"—his trusted
lieutenants in CLCS territory. Serrano characterized
Vladimir as Hernandez's "muscle." Villalobos told the
jury Vladimir became Hernandez's deputy overseeing
fifteen to twenty traqueteros on Westlake Avenue
around 2001 or 2002, and that Villalobos gave money
collected from traqueteros to Vladimir to bring to Guillen.
Vladimir protests that his mere association with CLCS is
not enough to convict him for participating in the
narcotics conspiracy. HN17[ ] He's [**43] right: "mere
gang membership" is not enough to show that a person
has joined a criminal conspiracy. See United States v.
Bingham, 653 F.3d 983, 997 (9th Cir. 2011). Not every
CLCS member is guilty of taking part in a narcotics
conspiracy by virtue of his gang allegiance.
Unfortunately for Vladimir, the evidence shows far more
than "mere gang membership," or mere presence in
CLCS territory. The government put on evidence
sufficient for rational jurors to find Vladimir was a core
member of CLCS's drug-trafficking operation. He
enriched it by supervising drug sales, he protected it
with violence, and he helped launder its profits.
Vladimir complains that the government's narcoticsconspiracy case against him largely rested on
Villalobos's testimony. Vladimir's argument goes like
this: because Villalobos was the chief witness in the
government's murder case against him, and because
the jury hung on that count, the jury necessarily
disbelieved Villalobos, so his testimony linking Vladimir
to the narcotics conspiracy cannot be credited. Putting
aside that Villalobos was far from the only witness who
implicated Vladimir in CLCS's narcotics activity, the
district court was right when, in denying Vladimir's
motion to acquit, it said, "[T]he jury can [**44] believe
Mr. Villalobos on one issue but not other issues."

Nicolas Jimenez

Page 20 of 27
962 F.3d 420, *445; 2020 U.S. App. LEXIS 18526, **44
Indeed, the jury's willingness to credit parts of
Villalobos's testimony while disregarding others
showcases its thoughtful, discerning approach to the
case; there is no evidence the jury was "inflamed"
against Vladimir. It was entitled to find him guilty based
on the evidence established at trial. Vladimir's narcoticsconspiracy conviction is affirmed.
Leonidas Iraheta's sufficiency claim fails, too. Witness
after witness identified Leonidas as a core member of
CLCS—one who sold drugs, protected CLCS territory
with violence, and helped to run its business operations.
Like his brother, Leonidas was considered part of
Martinez's "legal team." Pantoja testified that, in 2000,
Leonidas assisted Hernandez in collecting rent from one
of CLCS's [*446] Westlake crack-dealing locations,
and that Leonidas accompanied him on missions to
intimidate the rival Rockwood gang. Crucially, Pantoja
also testified that he personally witnessed Leonidas
selling crack and meth in CLCS territory. Villalobos told
the jury that Leonidas distributed drugs on Westlake
Avenue. Delaguila corroborated Pantoja's testimony that
Leonidas collected rent from drug sales. [**45] As with
his co-defendants, the evidence that Leonidas willingly
joined and helped further the purpose of CLCS's
narcotics machine is overwhelming. His conviction on
this count is affirmed.
2
Perez challenges the sufficiency of the evidence giving
rise to his three conspiracy convictions: Counts Sixteen
(VICAR conspiracy to murder), Seventeen (VICAR
conspiracy to kidnap), and Twenty (garden-variety
conspiracy to kidnap, 18 U.S.C. § 1201(a)(1), (c)). The
first basis of his challenge is the supposed unreliability
of Pantoja's testimony.10 Having addressed that
contention and found it wanting, see Part II.C.3.i, supra,
we will not belabor it any further. As with the sufficiency
of the evidence underlying the other Appellants'
convictions, we review de novo the district court's denial
of Perez's motion to acquit, affirming the conviction if,
"viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a
reasonable doubt." Phillips, 929 F.3d at 1123.

In addition to his attack on Pantoja's credibility, Perez
argues that, even if there was sufficient evidence of the
conspiracy's originating in the United States, there was
insufficient evidence that [**46] he joined that
conspiracy in this country.11 Perez does not deny his
presence at the Mexicali cliffside, nor that he tried to
murder Macedo there. But he denies that a reasonable
jury could have found that he joined the conspiracy in
California.
The evidence of Perez's joining the conspiracy in
California is admittedly less than overwhelming. But
examining that evidence in the light most favorable to
the government, it was sufficient to permit a reasonable
jury to find beyond a reasonable doubt that Perez joined
the conspiracy in California. Pantoja told jurors
emphatically and repeatedly that the conspiracy began
in California: he told them he ordered Murillo to take
Macedo to Mexico to kill him shortly after Garcia's
death, and that Murillo in turn requested Perez's help. It
required no great leap in logic for a juror to infer that
Murillo informed Perez of the plan's details upon
enlisting his help. Other evidence in the record also
supports this conclusion. Perez took precautions that
could be interpreted as demonstrating his knowledge
that the plan was always to murder Macedo: Perez
made the group stop on the way to Mexico so he could
retrieve an identification card that would allow [**47]
him to reenter the United States, but refused to allow
Macedo to get his own identification card; and Perez
told Aquino not to use real names or monikers on the
trip, indicating that Perez knew the purpose of [*447]
the trip was not benign. Finally, the counter-narrative
Perez presents is far less plausible. As Perez tells it,
without more than a few hours' advance notice, he
agreed to go along with Murillo, Aquino, and Macedo on
a multiday, nonlethal trip to Mexico without clear
purpose; acquiesced somewhere along the way in a
plan to murder Macedo; threw a rope around the young
man's neck; and yelled, "Die, motherfucker, die!" before
casting Macedo's body off a cliff. The evidence does not
compel that unlikely conclusion—a reasonable jury
could conclude otherwise from the evidence presented.
See Jackson, 443 U.S. at 318. Perez's conspiracy
convictions are affirmed.
III
In addition to their merits-based arguments, Hernandez

10 The

government characterized Perez's claim that Pantoja
perjured himself as a due-process challenge under Napue v.
Illinois, 360 U.S. 264, 79 S. Ct. 1173, 3 L. Ed. 2d 1217 (1959),
and its progeny. Perez expressly disavows a Napue claim, so
we need not address it.

11 Perez

does not challenge the substantive elements of the
murder or kidnapping charges, just his participation in the
conspiracy to commit those crimes.

Nicolas Jimenez

Page 21 of 27
962 F.3d 420, *447; 2020 U.S. App. LEXIS 18526, **47
and Leonidas challenge their sentences as both
procedurally
erroneous
and
substantively
unreasonable.12 HN18[ ] Beginning with their
procedural challenges, we "review the district court's
interpretation of the Guidelines de novo, the district
court's application of the Guidelines to the facts of the
case [**48] for abuse of discretion, and the district
court's factual findings for clear error," if the claim was
preserved. United States v. Treadwell, 593 F.3d 990,
999 (9th Cir. 2010), overruled on other grounds by
United States v. Miller, 953 F.3d 1095, 1103 n.10 (9th
Cir. 2020). Where the claim was not preserved, the
district court's determination is reviewed for plain
error.13See, e.g., United States v. Valencia-Barragan,
608 F.3d 1103, 1108 (9th Cir. 2010). A sentence is
substantively reasonable if it is "sufficient, but not
greater than necessary" under the totality of the
circumstances and § 3553(a) factors. United States v.
Carty, 520 F.3d 984, 994-95 (9th Cir. 2008) (en banc).
We do not adopt a presumption of reasonableness
purely because a sentence is within Guidelines, but
"when the judge's discretionary decision accords with
the [Sentencing] Commission's view of the appropriate
application of § 3553(a) in the mine run of cases, it is
probable that the sentence is reasonable." Id. at 994
(quoting Rita v. United States, 551 U.S. 338, 351, 127
S. Ct. 2456, 168 L. Ed. 2d 203 (2007)). We affirm the
district court's sentencing determinations as to both
Appellants because the court correctly computed the
applicable Sentencing Guidelines and committed no
reversible error.
A
Hernandez and Leonidas jointly object to the district
court's drug weight calculation under U.S.S.G. § 2D1.1;
application of threat and firearm enhancements under
the same subsection; explication of § 3553(a) factors;
and use of judicial fact-finding, which Appellants style as
a violation of the Fifth and Sixth Amendments.
Hernandez [**49] individually objects to the court's
application of obstruction of justice and managerial-role
enhancements under U.S.S.G. § 2D1.1. Leonidas

12 Because

Perez's conviction is reversed as to Count
Eighteen, we decline to reach his sentencing challenges at
this time. See United States v. Cortes, 757 F.3d 850, 866 (9th
Cir. 2014) (sentencing appeal moot where the court was
already vacating conviction).
13 Instances

where the claim was not preserved are noted in
our discussion below. The reader should otherwise assume
that it was preserved.

individually objects on a Rule 32 basis, claiming that the
court below did not address his minor-role adjustment
argument. We hold that the district court's only error was
in its application [*448] of the firearm enhancement to
Hernandez, but that this error was harmless and
therefore does not warrant reversal.
1
Appellants attack the district court's drug quantity
calculation on almost every front, but each blow misses
the mark. HN19[ ] The district court properly utilized
the multiplier method to calculate the amount of drugs
Appellants were responsible for under U.S.S.G. § 2D1.1
in order to set a base offense level. See Treadwell, 593
F.3d at 999-1000 (method of approximation must be
reviewed de novo); United States v. Culps, 300 F.3d
1069, 1076-77 (9th Cir. 2002) (multiplier method is
appropriate where the "amount of drugs seized does not
reflect the scale of the offense"). "Under the multiplier
method, the district court accounts for the defendant's
behavior over time by determining a daily or weekly
quantity, selecting a time period over which it is more
likely than not that the defendant was dealing in that
quantity and multiplying these two factors together." Id.
at 1077.
The district court's multiplier-method [**50] calculation
centered on the evidence adduced at trial, including
testimony about the amount of money collected weekly
from the Third and Westlake drug hub and the highest
average wholesale price of crack cocaine sold during
the conspiracy. That figure was multiplied to account for
the amount of drugs sold between 2000 and 2003, when
both Hernandez and Leonidas were working at the
Westlake location on behalf of CLCS, according to
testimony found credible by the court. See U.S.S.G. §
1B1.3, cmt. n.2 (defendant is responsible "for all
quantities of contraband with which he was directly
involved and . . . all reasonably foreseeable quantities of
contraband that were within the scope" of the
conspiracy). The district court's final calculation yielded
more than double the 25.2 kg threshold of crack cocaine
needed to support the base offense level of 38 that the
court selected as a result of its computation.
Appellants argue that the district court should have
applied the clear and convincing standard of proof in
making drug quantity determinations for sentencing.
HN20[ ] But we have "repeatedly held that sentencing
determinations relating to the extent of a criminal
conspiracy need not be established by clear and
convincing [**51] evidence." Treadwell, 593 F.3d at

Nicolas Jimenez

Page 22 of 27
962 F.3d 420, *448; 2020 U.S. App. LEXIS 18526, **51
1001. Further, we have specifically stated that "factual
disputes regarding drug quantity" should be resolved via
the preponderance of the evidence standard. United
States v. Flores, 725 F.3d 1028, 1035 (9th Cir. 2013).
Appellants' challenges to the district court's drug
quantity calculations are all factual and/or related to the
extent of the conspiracy and their involvement therein.
While it is not entirely clear from the record what
standard the district court applied to its findings, to the
extent that it used the preponderance of the evidence
standard in its drug quantity determination, there was no
error.
Somewhat more convincing is Appellants' argument that
the dollar figures utilized by the district court were
flawed. They argue that the court should have used a
higher price for crack cocaine—$36,000 per kilogram
retail, rather than the $20,000 per kilogram wholesale
price that it chose—and should not have relied on the
testimony of a co-conspirator witness who provided the
$8,000 per week sales figure. But, in actuality, more
than one witness testified to a similar sales figure at trial
where they were subject to cross-examination, and the
district court was entitled to rely on that information. See
United States v. Alvarez, 358 F.3d 1194, 1213 (9th Cir.
2004) (three coconspirators' [*449] drug [**52] weight
estimates were sufficiently reliable where they testified
under oath and were subject to cross-examination).
Moreover, even if the district court had utilized the
$36,000 per kilogram figure that Appellants prefer, the
final quantity calculation would still result in more than
25.2 kg of crack cocaine over three years, again placing
Appellants at a base offense level of 38. The district
court may have had good reason for choosing the
wholesale price rather than the retail price for its
calculation, given that testimony at trial supported the
notion that Hernandez and Leonidas acted as
"wholesaler[s] to the little homies," and any arguable
error was harmless. See, e.g., id. (error in drug
calculation is harmless if adjustment to correct error
does not lead to a lesser base offense level).
Finally, the record supports the district court's
determination that both Appellants were continuously
working at the Westlake drug hub during the selected
time period of 2000 to 2003, with Hernandez running the
show and Leonidas and his twin brother acting as
muscle. The district court cited Appellants' "long
standing participation in the scheme," and found that the
drug sales at Westlake were [**53] "reasonably
foreseeable in connection with the scope of the
defendant[s'] agreement as to the jointly undertaken
scheme." See United States v. Ortiz, 362 F.3d 1274,

1275 (9th Cir. 2004)HN21[ ] (conduct of a member of
a conspiracy must be "both in furtherance of jointly
undertaken activity and reasonably foreseeable" for it to
be considered at sentencing). Drug sales, and the
money flowing from them, were evidently consistent
during the timeframe selected. See Culps, 300 F.3d at
1081 (drug operation must be continuous during period
of time selected). Because we can find no evidence,
and Appellants present none, to dispute the time period
selected by the district court, evidence of the continuous
nature of the drug sales from the Westlake location
during that time, and Appellants' extensive connection to
those drug sales, the district court did not err in its
calculation of a base offense level of 38 for Hernandez
and Leonidas.
2
The district court applied two enhancements to the base
offense level calculation of both Leonidas and
Hernandez: a two-level enhancement for firearm
possession and a two-level enhancement for the use or
direction of violence or credible threats of violence.
U.S.S.G. § 2D1.1(b)(1)-(2). HN22[ ] Both may be
applied on the same facts. Id. § 2D1.1 cmt. n.11(B).
HN23[ ] A two-level firearm enhancement [**54] is
proper if a defendant possesses a weapon in
furtherance of the drug trafficking offense. Id. §
2D1.1(b)(1). In conspiracy cases, we look to "all of the
offense conduct, not just the crime of conviction," when
determining if a defendant possessed a firearm in
furtherance of a scheme. United States v. Willard, 919
F.2d 606, 610 (9th Cir. 1990) (citing U.S.S.G. §
1B1.3(a)(2)). Possession can include constructive
possession, which applies when there is "a sufficient
connection between the defendant and the contraband
to support the inference that the defendant exercised
dominion and control over [it]." United States v. Boykin,
785 F.3d 1352, 1364 (9th Cir. 2015) (internal quotation
marks omitted). See also U.S.S.G. § 2D1.1 cmt. n.11(A)
(enhancement may be applied if weapon "was present,
unless it is clearly improbable that the weapon was
connected with the offense").
No firearms were recovered in this case, however, and
none of the evidence cited by the district court indicates
that Hernandez possessed a firearm that may have
been connected to any offense. See United [*450]
States v. Briggs, 623 F.3d 724, 731 (9th Cir. 2010)
(reversal of sentence for application of firearm
enhancement where "defendant repeatedly bragged
about the guns he had access to, but none of these

Nicolas Jimenez

Page 23 of 27
962 F.3d 420, *450; 2020 U.S. App. LEXIS 18526, **54
firearms was ever recovered"); United States v. Miller,
890 F.3d 317, 328, 435 U.S. App. D.C. 351 (D.C. Cir.
2018) ("The District Court plainly erred by imposing the
enhancement because it made no factual finding as to
any nexus between those [**55] firearms and
Appellant's drug convictions . . . ."). The district court
made no finding about which Appellant possessed or
controlled the firearm that was used in the Barajas
murder. Neither did the court explain whether
Hernandez may have had constructive possession over
a firearm that was found on a fugitive arrested by LAPD
officers at Hernandez's apartment, or whether a firearm
that Hernandez apparently gave to Pantoja in 2000 for
Pantoja's personal protection could in any way link back
to Hernandez's possession during the course of the
scheme—we think both situations are improbable. See
United States v. Kelso, 942 F.2d 680, 682 (9th Cir.
1991) (reversal warranted where enhancement was
applied to defendant who "may have had access to the
gun, [but] there is no evidence he owned it, or even was
aware of its presence").
Likewise, we cannot place any specific firearm in
Hernandez's possession based solely on his general
involvement in "green-lighting" and "gangbanging." Cf.
United States v. Heldberg, 907 F.2d 91, 94 (9th Cir.
1990) (recovered gun was possessed during time period
of importation of drugs). Although the district court's
concern about the CLCS tradition of violence is well
supported on this record, without any actual evidence of
a firearm that Hernandez may have exercised
"dominion [**56] or control over," we cannot condone
application of the enhancement. Compare Briggs, 623
F.3d at 731, with Boykin, 785 F.3d at 1364
(enhancement proper where agents recovered firearms
at defendant's residence where he also conducted drug
sales); Willard, 919 F.2d at 609-10 (enhancement
proper where guns were recovered at defendant's place
of business).
The same is not true for Leonidas, however, because
the district court relied on testimony about his actual
handling of a firearm. Direct testimony established that
Leonidas and his brother, Vladimir, terrorized someone
with a "12-gauge shotgun," and that Leonidas was seen
by another witness with two guns during the course of
the conspiracy. There was also evidence in the record
that, in 2002, a police officer observed Leonidas
removing a stainless-steel handgun from his waistband
and placing it on the tire of a van shortly before fleeing.
The handgun was later recovered and Leonidas was
arrested. From these facts, the district court could have
reasonably concluded that, during the conspiracy,

Leonidas had constructive possession of a firearm,
which may have been used in furtherance of the aims of
the CLCS enterprise.
There was no error in applying the enhancement to
Leonidas and, although the district court [**57] erred in
applying the firearm enhancement to Hernandez, such
error does not require reversal. "When a defendant is
sentenced under an incorrect Guidelines range—
whether or not the defendant's ultimate sentence falls
within the correct range—the error itself can, and most
often will, be sufficient to show a reasonable probability
of a different outcome absent the error." MolinaMartinez v. United States, 136 S. Ct. 1338, 1345, 194 L.
Ed. 2d 444 (2016). But here, even without the two-level
firearm enhancement, the Guidelines range is the same.
The correct Guidelines calculation still yields a sentence
recommendation of life for Hernandez at offense [*451]
level 43. See U.S.S.G. Sentencing Table. The district
court also made quite clear that a sentence of life
imprisonment was warranted from the evidence
introduced at trial. Any effect on Hernandez's sentence
was therefore harmless. See United States v. MunozCamarena, 631 F.3d 1028, 1030 n.5 (9th Cir. 2011) (per
curiam).
Turning to the district court's two-level enhancement for
use or direction of threats, we find no error in its
application to either Hernandez or Leonidas. HN24[ ]
While it may be based on the same underlying
circumstances as the firearm enhancement, under
U.S.S.G. § 2D1.1(b)(2), a separate two-level
enhancement can be imposed if "the defendant used
violence, made a credible threat to use violence, or
directed [**58] the use of violence." Multiple witnesses
testified that Hernandez was in charge of gangbanging
for CLCS, and further evidence established that he took
young members to the neighboring Rockwood
community to "put in work," during which time they killed
a Rockwood gang member. The district court also cited
evidence of a threat by Hernandez to throw someone off
the roof of a building. At Leonidas's sentencing hearing,
the district court again cited his use of a 12-gauge
shotgun to terrorize a witness, and also credited
testimony that Leonidas went along for a shooting
mission against the Burlington Locos gang and slashed
a gang member's tires "as part of a . . . get-out-of-town
threat." At a minimum, this evidence establishes, by a
preponderance of the evidence, that both Appellants
credibly threatened violence and that Hernandez also
directed the use of violence. The district court did not err
in applying the U.S.S.G. § 2D1.1(b)(2) threat
enhancement to either Hernandez or Leonidas.

Nicolas Jimenez

Page 24 of 27
962 F.3d 420, *451; 2020 U.S. App. LEXIS 18526, **58
3
Hernandez individually challenges the district court's
application of an obstruction of justice enhancement
under U.S.S.G. § 3C1.1 and an aggravated-role
enhancement under U.S.S.G. § 3B1.1(b) to his overall
Guideline calculation. We conclude that both were
properly [**59] applied.
HN25[ ] An obstruction enhancement is proper:
If (1) the defendant willfully obstructed or impeded,
or attempted to obstruct or impede, the
administration of justice with respect to the
investigation, prosecution, or sentencing of the
instant offense of conviction, and (2) the obstructive
conduct related to (A) the defendant's offense of
conviction and any relevant conduct; or (B) a
closely related offense, increase the offense level
by 2 levels.
U.S.S.G. § 3C1.1. Application Note 4(A) provides
examples of obstruction, which include "threatening,
intimidating, or otherwise unlawfully influencing a codefendant, witness, or juror, directly or indirectly, or
attempting to do so." A defendant may be held
responsible for the actions of others if he "willfully
caused" or "aided and abetted" those acts. Id. § 3C1.1,
cmt. n.9. We have often affirmed sentencing
enhancements under § 3C1.1 where the defendant
intimidated, or shared information about, an individual
working as a police cooperator or "snitch." See, e.g.,
United States v. Scheele, 231 F.3d 492, 500 (9th Cir.
2000) (defendant used threatening language and called
police cooperator a "narc"); United States v. Jackson,
974 F.2d 104, 106 (9th Cir. 1992) (defendant passed
around co-defendant's cooperation agreement with the
words "rat" and "snitch" written at the top). "Where a
defendant's [**60] statements can be reasonably
construed as a threat, even if they are not made directly
to the threatened person, the defendant has obstructed
justice." Id.
[*452] At trial, a co-conspirator, Villalobos, testified that
Hernandez visited his home and told Villalobos's wife
that he should not cooperate with law enforcement.
Villalobos also testified that Hernandez effectively called
him out as a cooperator at a downtown Los Angeles
lockup. Hernandez argues that these co-conspirator
statements are not reliable and are hearsay.
HN26[ ] As noted earlier, the district court is entitled to
rely on co-conspirator testimony offered at trial. Alvarez,
358 F.3d at 1213. And while a district court may
consider "relevant information without regard to its

admissibility under the rules of evidence applicable at
trial," U.S.S.G. § 6A1.3(a), Hernandez is correct that
"[c]hallenged information is deemed false or unreliable if
it lacks some minimal indicium of reliability beyond mere
allegation," United States v. McGowan, 668 F.3d 601,
606-07 (9th Cir. 2012) (internal quotations omitted).
Hernandez is also correct that the testimony of
Villalobos's wife may well constitute hearsay-withinhearsay,14 but the lockup incident at the Metropolitan
Detention Center holding federal prisoners that
Villalobos himself witnessed firsthand [**61] provides a
second basis for the district court's holding. Because we
conclude that the testimony about the lockup incident is
not unreliable to the degree of any of the cases cited by
Hernandez, the district court properly relied on it in
applying the enhancement. Cf. id. at 607-08 (the only
evidence was transcript-based testimony without
opportunity for cross-examination or observation for
credibility); United States v. Hanna, 49 F.3d 572, 577-78
(9th Cir. 1995) (the only evidence was contradicted
testimony, given at the sentencing hearing, of a single
event by co-defendant who had already pleaded guilty
and repeatedly invoked Fifth Amendment).
Similarly, there was no clear error in the district court's
application of an aggravated-role enhancement to
Hernandez's sentencing calculation. See United States
v. Yi, 704 F.3d 800, 807 (9th Cir. 2013). HN27[ ] A
three-level enhancement, as was utilized, is available
for a defendant who acts as "a manager or supervisor
(but not an organizer or leader) [where] the criminal
activity involved five or more participants or was
otherwise extensive." U.S.S.G. § 3B1.1(b). A court
should consider "all persons involved during the course
of the entire offense" when deciding if an organization is
"extensive." Id. § 3B1.1(b) cmt. n.3. The introductory
commentary for U.S.S.G. § 3B1.1 also notes that the
"determination of a defendant's [**62] role in the
offense is to be made on the basis of all conduct,"
including "all reasonably foreseeable acts and
omissions of others in furtherance of the jointly
undertaken criminal activity." See United States v.
Tankersley, 537 F.3d 1100, 1110 (9th Cir. 2008) (noting
that such considerations are "particularly appropriate
when sentencing members of a pervasive and
farranging [sic] criminal enterprise"); Ortiz, 362 F.3d at

14 Appellants'

counsel did not object on hearsay grounds when
the testimony was offered at trial, but it is unclear from the
record whether Villalobos's wife is a co-conspirator whose
statement would be admissible over such an objection, as well
as being an admission against penal interest of the declarant.

Nicolas Jimenez

Page 25 of 27
962 F.3d 420, *452; 2020 U.S. App. LEXIS 18526, **62
1275.
During Hernandez's sentencing hearing, the district
court cited the testimony of four different co-conspirators
to support its conclusion that Hernandez was "a
manager or a supervisor" of the drug conspiracy. This
included evidence that Hernandez was in charge of the
Westlake drug distribution hub from 2000 to 2003, in
charge of gangbanging for an even longer period, and
was part of the "core group" and "top echelon legal
team"
of
CLCS.
Hernandez
disputes
this
characterization of his involvement [*453] and claims
he was in fact a notorious partier who was absent from
many major gang decisions.
When viewing the conspiracy as a whole, it was clearly
both "extensive" and involved at least five other
participants, only one of which is necessary. See
U.S.S.G. § 3B1.1(b). The district court was also correct
in concluding that Hernandez was a "manager or
supervisor" because he [**63] oversaw and exercised
some control over one or more of the other participants.
See Gadson, 763 F.3d at 1222. Evidence established
that Hernandez played a large role in the operation of
the Westlake drug hub and was regarded as the head of
gangbanging. He directly oversaw the actions of the two
Iraheta brothers and exercised authority over many
other members of the gang, including traqueteros. See
United States v. Franco, 136 F.3d 622, 631 (9th Cir.
1998) ("manager or supervisor" enhancement supported
by proof of one other participant running an errand for
defendant who "set up the final transaction but did not
handle the drugs himself" and the inference that others
also acted at his direction). Though Hernandez may not
have been present for every major sea change in gang
leadership and strategy, he meets the criteria necessary
for the enhancement and we reject his request to
conclude otherwise.
4
Leonidas individually challenges his sentence on the
basis that the district court failed to resolve one of his
objections to the PSR, under Federal Rule of Criminal
Procedure 32(i)(3)(B) ("Rule 32"). HN28[ ] Rule 32
requires that the court, at sentencing, "must—for any
disputed portion of the presentence report or other
controverted matter—rule on the dispute or determine
that a ruling is unnecessary either because the matter
will not affect [**64] sentencing, or because the court
will not consider the matter in sentencing." But only
"factual objections" to the presentence report are
considered "disputed" for purposes of Rule 32. See

United States v. Petri, 731 F.3d 833, 840 (9th Cir.
2013). Sentencing adjustments "ordinarily do[] not
require specific factfinding," unless a defendant contests
"specific factual statements made in the PSR." United
States v. Carter, 219 F.3d 863, 866 (9th Cir. 2000). This
issue was not raised in the court below and is therefore
reviewed for plain error. United States v. Christensen,
732 F.3d 1094, 1101 (9th Cir. 2013).
We reject Leonidas's Rule 32 argument because he
failed to contest any factual statements made in the
PSR. Though the sentencing memorandum filed by his
counsel included the assertion that Leonidas should
receive a two-level reduction for his minor role in the
enterprise, it did not contradict any of the facts in the
PSR. Leonidas's memorandum simply marshaled
additional facts from trial in support of his argument that
the district court should apply the reduction. This kind of
challenge does not trigger Rule 32, and the court was
not otherwise obligated to make specific findings of fact
to justify its decision not to apply the reduction. See
Petri, 731 F.3d at 841 (rejecting request for minor-role
reduction where objection was raised but defendant "did
not
allege
a
factual
inaccuracy
in
the
presentence [**65] report"); Christensen, 732 F.3d at
1102 ("Because [the defendant] never made specific
factual objections to the PSR regarding victim impact
and loss amounts, Rule 32 was never triggered."). No
Rule 32 violation was committed.
5
Hernandez and Leonidas jointly argue that the district
court's explanation of how its sentencing determinations
[*454] square with § 3553(a) was lacking because the
court did not address each of their objections to judicial
findings or provide "reasons specific to each appellant."
HN29[ ] "[A] sentencing judge does not abuse his
discretion when he listens to the defendant's arguments
and then 'simply [finds the] circumstances insufficient to
warrant a sentence lower than the Guidelines range.'"
United States v. Amezcua-Vasquez, 567 F.3d 1050,
1053-54 (9th Cir. 2009) (second alteration in original)
(quoting Carty, 520 F.3d at 995). Because the
Appellants did not object to the district court's § 3553(a)
findings below, we review the determination under the
even more deferential plain-error standard. See
Valencia-Barragan, 608 F.3d at 1108.
After calculating the base offense level, listening to
arguments—first about the Guidelines calculation, then
about the § 3553(a) factors—from both sides, and
directly citing to multiple aspects of the record
supporting his § 3553(a) determinations, the district

Nicolas Jimenez

Page 26 of 27
962 F.3d 420, *454; 2020 U.S. App. LEXIS 18526, **65
judge gave a within-Guidelines sentence to both
Appellants. The court recited some of [**66] the same
concerns at both Hernandez's and Leonidas's
sentencing hearings but provided individualized facts
that supported its determination as to each. We find no
error in proceeding in this manner, let alone one that
was plain.
6
Hernandez and Leonidas argue that the Sixth
Amendment and the Fifth Amendment's Due Process
Clause prohibited the district court from relying only on
judicial findings of fact to justify giving them both life
sentences. Appellants specifically point to the fact that if
the court had adopted the drug amounts found by the
jury, they should have been given 150-month
sentences, at most. Because these arguments were first
raised on appeal, we review for plain error. See
Treadwell, 593 F.3d at 1016.
Appellants' joint brief ignores the fact that the jury found
them responsible for possession of 280 grams or more
of a mixture that contains cocaine base under 21 U.S.C.
§ 841(b)(1)(A)(iii), which allows for a maximum penalty
of life imprisonment. HN30[ ] This Court has
repeatedly stated that the Fifth and Sixth Amendments
do not limit a judge's discretion to find facts at
sentencing, as long as the resulting sentence does not
exceed the statutory maximum based on the facts found
by the jury. See Treadwell, 593 F.3d at 1017; United
States v. Raygosa-Esparza, 566 F.3d 852, 855 (9th Cir.
2009) (rejecting Fifth and Sixth Amendment challenges
because "[t]he revised sentence imposed by the district
court for each offense [**67] does not exceed th[e]
statutory maximum. Accordingly, no constitutional
violation occurred, even if the district court did rely on
facts not found by the jury."). Appellants cite Apprendi v.
New Jersey, 530 U.S. 466, 120 S. Ct. 2348, 147 L. Ed.
2d 435 (2000), but neither that case nor its progeny
guard against sentences within the prescribed statutory
maximum based on facts found by the jury. Id. at 490
(jury must decide facts increasing statutory maximum
penalty); United States v. Booker, 543 U.S. 220, 233,
125 S. Ct. 738, 160 L. Ed. 2d 621 (2005) (increasing
judicial discretion in sentencing by making the
Sentencing Guidelines advisory to avoid Sixth
Amendment problems); United States v. Fitch, 659 F.3d
788, 795-96 (9th Cir. 2011) (citing these standards as
supporting the conclusion that the "sentencing judge
has the power to sentence a defendant based upon
facts not found by a jury up to the statutory maximum").
As such, Appellants' constitutional argument is without

merit.

[*455] B
The substantive-unreasonableness claims raised by
Hernandez and Leonidas also fail. Though Appellants
are correct that the district court considered the Barajas
murder during sentencing, finding both Appellants
responsible under the preponderance of the evidence
standard, the court explicitly declined to consider that
crime in its offense level calculation. Instead, the court
determined Appellants' offense level using evidence of
their drug trafficking [**68] activities and reserved the
Barajas murder for consideration among other § 3553(a)
aggravating factors. For Hernandez, this included: his
leadership role, his substantial engagement in drugdealing and gangbanging, his promotion of violence,
and his use of intimidation tactics. For Leonidas, the
court cited: his participation in shooting missions,
general gangbanging in rival territory, violent threats,
and his allegiance to the gang all the way up through
trial. Community protection was another important
consideration cited by the trial judge at both sentencing
hearings. Appellants' sentences were within the
Guidelines range calculated by the court (life for
Hernandez and 360 months to life for Leonidas), and
the § 3553(a) testimony cited justifies a sentence on the
higher end of the range for Leonidas. See Carty, 520
F.3d at 993-94. The life sentences imposed for
Hernandez and Leonidas were not substantively
unreasonable.
IV
Hernandez's, Leonidas's, and Vladimir's convictions are
affirmed. Perez's convictions on Counts One, Sixteen,
Seventeen, and Twenty are affirmed, but his conviction
on Count Eighteen is vacated and remanded. The
government may choose to retry Perez on that count or
the district court may resentence him [**69] without it if
no retrial is conducted. Though the district court
improperly applied the firearm enhancement to
Hernandez, the error was harmless, and all of
Hernandez's and Leonidas's other sentencing-related
challenges fail. We hold that there was no error in the
district court's decision to give both Hernandez and
Leonidas life sentences. Because the district court
accounted for Perez's Count Eighteen conviction in
sentencing him, we remand for resentencing if the
government elects not to retry him on that charge.
AFFIRMED in part, REVERSED and VACATED in part,
and REMANDED with instructions.

Nicolas Jimenez

APPENDIX
B

Case: 15-50246, 08/19/2020, ID: 11794566, DktEntry: 129, Page 1 of 3

FILED

UNITED STATES COURT OF APPEALS

AUG 19 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

13-50014

D.C. No.
2:07-cr-01172-DDP-32
Central District of California,
Los Angeles

JAVIER PEREZ, AKA Ranger,
ORDER
Defendant-Appellant.
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

15-50241

D.C. No.
2:07-cr-01172-DDP-25

v.
VLADIMIR ALEXANDER IRAHETA,
AKA Jokes, AKA Slick, AKA the Twin,
Defendant-Appellant.
UNITED STATES OF AMERICA,

No.

15-50243
18-50187

Plaintiff-Appellee,
D.C. No.
2:07-cr-01172-DDP-26

v.
LEONIDAS IRAHETA, AKA Druggy,
AKA Drugs, AKA Shysty, AKA the Twin,
Defendant-Appellant.

Case: 15-50246, 08/19/2020, ID: 11794566, DktEntry: 129, Page 2 of 3

UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

15-50246

D.C. No.
2:07-cr-01172-DDP-23

v.
EDUARDO HERNANDEZ,
Defendant-Appellant.
UNITED STATES OF AMERICA,

No.

Plaintiff-Appellee,

18-50181

D.C. No.
2:07-cr-01172-DDP-23

v.
EDUARDO HERNANDEZ, AKA Ed
Garcia, AKA Eduardo Garcia, AKA
Eduardo Hernadez, AKA Eduardo Perez
Hernandez, AKA Edward Hernandez, AKA
Lil Oso, AKA Jorge Mateo Martinez, AKA
Oso, AKA Hernandez Oso, AKA Edward
Perez, AKA Terco,
Defendant-Appellant.
Before: BERZON, TALLMAN, and R. NELSON, Circuit Judges.
Judge Berzon and Judge R. Nelson vote to deny the petition for rehearing en
banc filed by Appellants Leonidas Iraheta and Eduardo Hernandez (Dkt. 154), and
Judge Tallman so recommends.

2

Case: 15-50246, 08/19/2020, ID: 11794566, DktEntry: 129, Page 3 of 3

The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for rehearing en banc is DENIED.

3

